                                             Table of Contents
Introduction ...........................................................................................................................................1

Results in Brief .....................................................................................................................................3

Background ............................................................................................................................................6

Chapter 1 – Oversight and Coordination ...............................................................................9
           Recommendations ..........................................................................................................................12

Chapter 2 – Safety and Security ................................................................................................14
           Serious Incidents ............................................................................................................................14
               Fatalities..................................................................................................................................14
               Attempted Suicides....................................................................................................................17
               Escapes .....................................................................................................................................19
           Recommendations ..........................................................................................................................24

Chapter 3 – Detention Facility Staffing .................................................................................26
           Recommendations ..........................................................................................................................29

Chapter 4 – Detention Facility Maintenance ......................................................................31
           Maintenance Funding .....................................................................................................................34
           Maintenance Accountability...........................................................................................................36
           Recommendations ..........................................................................................................................36

Chapter 5 – Funding of the Detention Program ...............................................................37
           Budget Projections and Planning....................................................................................................38
           Fund Designation ...........................................................................................................................38
           New Facility Funding .....................................................................................................................39
           Internal Controls.............................................................................................................................41
           Public Law 93-638 Contract Funding ............................................................................................42
           Recommendations ..........................................................................................................................44

Chapter 6 – Detention Program Training ............................................................................45
           Recommendations ..........................................................................................................................47

Chapter 7 – Other Issues ...............................................................................................................49
           Juveniles Housed at Adult Facilities ..............................................................................................49
           Overcrowding ................................................................................................................................50
           Policies and Procedures ..................................................................................................................51
           Liability ..........................................................................................................................................52
           Recommendations ..........................................................................................................................52

Chapter 8 – Positive Findings in the Detention Program ............................................54
           Recommendation............................................................................................................................56

Chapter 9 – Conclusion ..................................................................................................................57
Introduction

               The Bureau of Indian Affairs (BIA) operates or funds
               detention facilities throughout Indian Country. For many
               years and in multiple forums, the BIA and the Department of
               Justice (DOJ) have found these facilities to be understaffed,
               overcrowded, and underfunded. During the course of other
               work conducted by the Office of Inspector General (OIG),
               we received numerous anecdotal reports that reaffirmed these
               findings – years later. Therefore, as part of the ongoing
               effort of the OIG to examine law enforcement and security
               programs within the Department of the Interior (DOI or the
               Department), BIA’s detention program was selected for
               assessment in 2003.

               The OIG, Program Integrity Division, began the assessment
               of Indian Country detention facilities in September 2003.
               The focus of our assessment was to determine if Indian
               Country detention facilities were safe and secure, and if BIA
               appropriately used the funds it received to operate the
               detention program. We conducted actual site visits at 27
               detention facilities (also referred to as jails), scrutinized
               hundreds of detention and budget records, and conducted
               more than 150 interviews with BIA and tribal officials, as
               well as local and federal detention professionals throughout
               the United States. We conducted our assessment in
               accordance with the President’s Council on Integrity and
               Efficiency Quality Standards for Inspections. Accordingly,
               we included such tests or reviews of records that we
               considered necessary.

               We shared our observations with detention facility personnel
               during each visit. In addition, we provided regular updates to
               BIA Law Enforcement Services (BIA-LES) and Department
               management during the course of the assessment.

               Early in our assessment, it became abundantly clear that
               some facilities we visited were egregiously unsafe,
               unsanitary, and a hazard to both inmates and staff alike.
               BIA’s detention program is riddled with problems and, in our
               opinion, is a national disgrace with many facilities having
               conditions comparable to those found in third-world
               countries. In short, our assessment found evidence of a
               continuing crisis of inaction, indifference, and
               mismanagement throughout the BIA detention program. BIA


                                           -1-
appears to have had a laissez-faire attitude about these
horrific conditions at its detention facilities. Because many
of the conditions were potentially life–threatening, the
Inspector General issued an Interim Report to the Secretary
in April 2004 describing our most significant findings, and to
provide an opportunity for her to take immediate and
appropriate action.

This report represents the general status of the detention
program and facilities as we found them during our
assessment. While recognizing some very recent attempts by
the Department and BIA to correct deficiencies, we believe
that anything short of strong leadership, rapt attention of
senior management, and heroic efforts on the part of BIA
personnel will fail to correct the deplorable conditions of
Indian Country detention facilities.

Throughout the report, we recommend actions that we
believe will improve the security, safety, and efficiency of
detention facilities in Indian Country. Our anxiety over the
detention program remains heightened, however, not only
because of what we found during our site visits but, more
importantly, because of what we fear remains undiscovered
at the sites we did not visit.




                             -2-
Results in Brief

                   BIA has failed to provide safe and secure detention facilities
                   throughout Indian Country. Our assessment revealed a long
                   history of neglect and apathy on the part of BIA officials,
                   which has resulted in serious safety, security, and
                   maintenance deficiencies at the majority of the facilities.
                   Despite audits, inspections, reports, and other warnings about
                   the woeful conditions of the detention program, BIA has
                   utterly failed to remedy the problems. Whether it lacks the
                   organizational will, or infrastructure, or both, BIA cannot
                   sustain its focus on the problems at its detention facilities
                   long enough to resolve them. Absent relentless pressure and
                   the unflagging support of senior BIA management, we fear it
                   is unlikely to do so in the future.

                   Because we found the detention program without a credible
                   reporting structure, or accountability, we also found that BIA
                   was unaware of 98% of the serious incidents – including
                   deaths and suicides – that occurred at the facilities we visited.
                   In fact, our assessment was continuously hampered by BIA
                   or jail officials who supplied us with incorrect, inconsistent,
                   and often erroneous information regarding the detention
                   program.

                   With very few exceptions, the detention centers we visited
                   are operating at below minimum staffing levels. Some of the
                   understaffing takes facilities to the point of being unsafe;
                   none are staffed at a level that detention managers consider
                   optimal.

                   The maintenance backlog at these facilities is significant.
                   Jail administrators reported countless stories of neglect and
                   delay on the part of BIA’s Office of Facilities Management
                   and Construction (OFMC). Our review of OFMC
                   maintenance logs revealed numerous inaccurate, improper
                   and erroneous entries. We found these logs to be of minimal
                   value and were not surprised to learn that the Government
                   Accountability Office (GAO) reached a similar conclusion
                   when they reviewed the maintenance records in 2003.

                   We found that detention program funding is haphazardly
                   managed by BIA, and once distributed to the tribes, it
                   becomes virtually unaccounted for. BIA could produce little
                   evidence of basic budget planning, budget execution, or


                                                 -3-
budgetary controls. Since BIA simply does not track
expenditures made by tribes, our attempts to identify the total
funding for the detention program proved futile. The neglect
and mismanagement of detention program funding has not
only exacerbated the systemic problems attendant to the
detention program in Indian Country, but has also created an
environment in which fraud can be perpetrated with impunity
and waste can occur undetected.

Training for detention personnel is inconsistent and
unpredictable. The majority of the detention officers at the
sites we visited have yet to attend mandatory basic training
for detention officers at the Indian Police Academy (IPA) in
Artesia, NM. Many officers failed to complete the training
within 1 year of being hired, as mandated in BIA policy. We
even found officers who had been employed for as long as 12
years without attending the required formal certification
training.

Basic jail administration procedures and standards are neither
followed nor met at most facilities. Many of the
management officials admitted that their detention facilities
fail to even “come close” to meeting BIA standards for
operation, which are derived from nationally recognized
detention standards.1 In fact, we found the majority of the
jails make little or no effort to comply with even the most
basic requirements.

Unfortunately, we often found that complacency and
resignation were the norm — at all levels of BIA
management — with no evidence of a coordinated and
comprehensive strategic plan to improve and manage the
detention program. Without a dramatic shift in
organizational culture and professionalism, any positive
change will likely be short lived and the program will remain
in a dismal status quo. A comprehensive overhaul
necessitates an infusion of leadership that can address issues
with creativity, decisiveness, and commitment throughout all
levels of the detention program.

We believe it is imperative that BIA take immediate action to
alleviate potentially life-threatening situations at its detention
facilities. The haphazard response to DOJ, OIG, and other

1
 BIA reported that detention standards were created using industry
specific information obtained from the American Correctional
Association.


                                 -4-
reports must give way to a comprehensive and coordinated
approach to address the systemic safety, security, and
maintenance issues facing Indian jails. Mindful of other
historical failures, however, we fear that once the attention
wanes on the issues we identify here, the momentum and
interest in the BIA detention program will diminish as
quickly as it began. Many improvements and changes were
anticipated when BIA published its detention standards in
1996 and when DOJ published its report about the Indian
Country law enforcement and detention program in 1997. As
this report will reiterate, once again, little has changed.




                            -5-
  Background

                                      BIA’s mission is to fulfill trust responsibilities and promote
                                      self-determination on behalf of tribal governments, American
                                      Indians, and Alaska Natives. BIA provides services directly
 Age of Indian Country Detention      and through contracts, grants, or compacts for 1.5 million
             Facilities               American Indians and Alaska Natives who are members of
• 33.0% (24) are over 30 years old    562 federally recognized Indian tribes in the 48 contiguous
• 28.0% (20) are 20-30 years old
                                      United States and Alaska. The expansive scope of BIA
• 19.5% (14) are 10-20 years old
• 19.5% (14) are under 10 years old
                                      programs covers the full range of state and local government
                                      services, including law enforcement services. BIA is
                                      required to provide law enforcement services on reservations
                                      under the Indian Law Enforcement Reform Act (ILERA) of
                                      1990 (Public Law 101-379). BIA-LES provides direct
                                      assistance to tribes for law enforcement programs, including
                                      uniformed patrol, criminal investigations, detention, and
                                      dispatch on approximately 56 million acres of Indian Country
                                      in 35 states.

                                      As of August 2004, the detention program consisted of 72
                                      detention facilities2 in Indian Country – 17 of which are
                                      operated by BIA-LES, 46 receive BIA funding for detention
                                      services under 638 contracts, and 9 are operated by tribes.
                                      Of the 72 facilities, 27 house adult inmates, 11 house
                                      juveniles, and 34 house a combination of both adults and
                                      juveniles.

                                      Most of the older detention facilities were built as holding
                                      facilities to accommodate approximately 10-20 inmates for
                                      short-term periods (48 hours or less). On average, the newer
                                      facilities have been designed to accommodate 60 inmates,
                                      with four new facilities having more than 100 beds, along
                                      with additional rooms and areas, making the facilities more
                                      suitable for longer periods of incarceration (12 months or
                                      less). Individuals incarcerated in these facilities usually have
                                      committed misdemeanors, such as public intoxication or
                                      assault and battery.



                                      2
                                        BIA-LES has been unable to provide us with an exact number of
                                      facilities under its control despite numerous requests for an accurate list.
                                      For example, the Chemawa Indian School was originally included in this
                                      total; however, it no longer is being used by BIA to detain juveniles and
                                      was subsequently removed from its inventory. Similarly, the Mescalero
                                      detention facility was closed after we began our assessment.


                                                                         -6-
                  Individuals who have committed felonies, such as murder
                  and burglary, are routinely incarcerated in state or federal
                  facilities off reservations; however, there are times when
                  felons are held in Indian jails.

                  The DOJ Bureau of Justice Statistics (BJS) publishes an
                  annual report containing statistical data about Indian Country
                  jails. These reports provide information pertaining to jail
                  populations, crimes committed by inmates, overcrowding,
                  jail capacity versus inmate population, and jails under court
                  orders or consent decrees to improve conditions. These and
                  other DOJ reports have documented overcrowding and
                  inadequate capacity as problems in Indian Country for many
                  years.

                  A number of other reports have also documented such
                  problems in Indian Country jails. As early as 1994, the OIG
                  reported that Indian Country detention facilities were poorly
BJS 2002 report   maintained and mismanaged. As a result of the 1994 report,
                  BIA contracted for individual safety and security inspections
                  at each of the jails in 1995. The inspection reports
                  overwhelmingly documented a systemic pattern of
                  overcrowding and poorly maintained and managed jails.

                  In 1997, DOJ issued a report on Indian Country law
                  enforcement that announced “a public safety crisis in Indian
                  Country.” In addition to identifying shortages of law
                  enforcement officers and resources, the DOJ report also
                  noted that “[detention] staffing levels fall far short of those
                  required for adequate inmate supervision, thus creating a
                  threat to welfare of the community, staff and inmates.” DOJ
                  recommended that BIA-LES be given line authority for law
                  enforcement services, including the detention program, rather
                  than leaving law enforcement services decentralized and
                  under the supervision of the local BIA superintendent. BIA
                  adopted this recommendation in 1999.

                  On June 3, 1998, former Assistant Secretary - Indian Affairs
                  Kevin Gover testified before the Senate Committee on Indian
                  Affairs on the Department’s Indian Country law enforcement
                  initiative. Gover testified about the lack of adequate
                  detention facilities, their generally decrepit conditions, and
                  the considerable problems in maintaining and staffing the




                                               -7-
jails. Gover made note of the lack of juvenile facilities,
which resulted in numerous occasions where juveniles were
temporarily placed in adult detention facilities because there
was no other place to house them.

Gover also testified about restructuring BIA law enforcement
services to include detention services under the supervision
of BIA-LES officials. The restructuring, which ultimately
occurred in 1999, was designed to place these services under
the control of law enforcement professionals to ensure that
law enforcement services were directed by a central
command structure, rather than by area managers with little
or no law enforcement background.

During this time period, many proposed that Indian Country
law enforcement should be transferred to DOJ. This proposal
was revisited in 2001 during the International Association of
Chiefs of Police (IACP) summit with tribal communities and
their justice systems. In its report, Improving Safety in
Indian Country, the IACP suggested streamlining the federal
agencies involved with law enforcement in Indian Country to
improve coordination and delivery of services.4

In addition to these outside reports and recommendations,
internal BIA inspection reports went on to highlight detention
program problems and deficiencies. In 2001, a presentation
to senior BIA-LES officials identified specific issues in the
jails and provided an action plan to address each problem.
According to the author of the presentation, BIA-LES
managers appeared disinterested and subsequently no action
was taken.

After a thorough review of these previous reports and
recommendations, we were disappointed, but not surprised,
to find during our assessment that little implementation has
taken place and the state of the detention program today is no
better, and arguably worse, than what it was a decade ago.




4
  International Association of Chiefs of Police, Improving Safety in
Indian Country: Recommendations From the IACP 2001 Summit,
Alexandria, VA, October 2001. p.11.


                                  -8-
Chapter 1: Oversight and Coordination

                 Senior BIA-LES officials have acknowledged that the
                 detention program is severely understaffed, that facilities are
                 overcrowded, and that neither has received the attention or
                 funding to adequately address the numerous deficiencies.
                 Not once during our assessment did BIA-LES officials gloss
                 over or deny the dire condition of the program or the
                 profound and serious maintenance issues at the facilities.
                 These officials readily admit that they have placed a higher
                 priority on fighting crime on the reservations and focusing on
                 the policing aspect of law enforcement services after line
                 authority was granted to BIA-LES in 1999. They
                 consistently contend that a lack of funding and staffing has
                 made it impossible to address both law enforcement and
                 detention programs simultaneously.

                 Despite this candid acknowledgement, these officials argue
                 that the detention program has improved under their direct
                 supervision and point out that BIA-LES is still in its infancy.

                 Since receiving its authority, we found that BIA-LES has
                 attempted to provide oversight and management for the
                 detention program with very limited success, using a two-
                 pronged approach.

                 Administratively, the detention program has been
                 coordinated through a Detention Program Manager working
                 out of the BIA-LES Central Office. The manager, a criminal
                 investigator by background, was appointed in 2000, and
                 provided with limited training, virtually no staff, and minimal
                 authority to accomplish his duties.

                 At the outset of our assessment, we discovered that the
                 detention program manager had been assigned as the BIA-
                 LES Acting Deputy Director of Operations. He conceded
                 that much of his time was diverted from the detention
                 program, effectively leaving that program without a
                 functioning manager.

                 In 2001, a detention specialist was hired as the lone staff
                 member of the program manager. This single detention
                 specialist was expected to provide tribal and BIA jails with
                 technical advice as well as conduct compliance checks.
                 Since the beginning of this assessment, three additional


                                              -9-
         detention specialists have been added.

         Six BIA District Commanders are responsible for managing
         law enforcement services in their respective districts, and
         they rely mainly on BIA chiefs of police to oversee these
         functions on the reservations. Our assessment found the
         oversight of the detention program by these District
         Commanders to be virtually non-existent. In fact, several
         District Commanders had never visited some jails under their
         command or spoken with the jail administrators. Many of
         the Commanders acknowledged giving little or no attention
         to jail issues, but they also pointed out that neither did their
         superiors raise detention as a priority. One District
         Commander reported that he could not recall a single
         discussion on detention issues during any staff meeting or
         conference call for more than a year.

         The tribal 638-contract detention facilities are similarly
         managed and overseen by a chief of police. We found a
         greater number of dedicated jail administrators, however,
         overseeing the larger tribal detention programs. Because
         these jail administrators tend to be more extensively trained
         detention professionals, we found their jails to be more
         efficiently operated and managed than BIA-operated jails.

                             D e t e n t io n P o s itio n s

                              D e p u t y B u r e a u D ir e c to r *                 P o s itio n s p r io r to 3 /2 0 0 4
                                                                                      N e w P o s itio n s a s o f 3 /2 0 0 4
                                      O f f ic e o f L a w                            * T itle C h a n g e O n ly
                               E n f o r c e m e n t S e r v ic e s


                                   A s s o c ia te D ir e c to r
                                              G S -1 5
                                  O f f ic e o f C o r r e c tio n s
                                             V acant

                                   C h ie f o f D e te n t io n *
                                            G S -1 3 /1 4
                                  D iv is io n o f C o r r e c t io n
                                             S e r v ic e s

D e te n tio n S p e c ia lis t                                          L a w E n fo r c e m e n t
      G S -9 /1 1 /1 2                                                        S p e c ia lis t
         V acant                                                              G S -7 /9 /1 1


        D is tr ic t 1                                                          D is tr ic t 2
D e te n tio n S p e c ia lis t                                         D e te n tio n S p e c ia lis t
      G S -9 /1 1 /1 2                                                        G S -9 /1 1 /1 2


        D is tr ic t 3                                                          D is tr ic t 4
D e te n tio n S p e c ia lis t                                         D e te n tio n S p e c ia lis t
      G S -9 /1 1 /1 2                                                        G S -9 /1 1 /1 2




                                                                - 10 -
DOI’s Office of Law Enforcement and Security (DOI-OLES)
is responsible for overseeing all Department law enforcement
and security programs, including detention facilities in Indian
Country. Since 2001, DOI-OLES has been responsible for
coordinating and establishing departmental law enforcement
policies and services. We found no evidence, however, of
DOI-OLES providing any oversight of the Indian detention
program.

BIA-LES has proven incapable of providing the coordination
and oversight of Indian Country jails without assistance. The
detention program desperately needs a level of advocacy and
support well beyond what BIA-LES is presently able to
provide.

In addition to the lack of DOI-OLES involvement, we found
senior BIA management outside of law enforcement to be
inexplicably uninformed about detention program
deficiencies – despite annual funding requests specifically to
improve jail facilities. One senior political appointee
remarked that the law enforcement deputy director never
brought the dismal state of Indian Country jails to the
attention of the Assistant Secretary’s office.

BIA-LES simply does not have the administrative
infrastructure to properly manage and oversee the detention
program. Detention staff at many of the 638-contract jails
we visited told us that BIA-LES was essentially a non-entity.
BIA-LES has failed to provide 638-contract jails with
technical support or an accessible point-of-contact. The
contempt for BIA was readily apparent in many of the
discussions we had with detention staff and tribal members.
One jail administrator met our team at the door by
exclaiming, “I’ll tell you now I am not a fan of BIA.”

The lack of a dedicated staff with the capability to develop,
implement, and administer policies and procedures is a
primary cause of BIA’s inability to effect change in the
detention program. Absent appropriate staff to monitor
compliance, safety issues go unreported and the truly
deplorable conditions of the jails remain shrouded in secrecy.

Having chiefs of police manage detention facilities has
proven to be an operational failure. High crime rates and
poor officer staffing demand the constant attention of the



                            - 11 -
chiefs. Without a dedicated detention program manager on
site, the needs of the jails will always remain secondary to
fighting crime.

Another significant challenge for management will be to
overcome the frustration, cynicism, and apathy that infect
Indian Country detention personnel. The overall
mismanagement and neglect of the program has left many
personnel with the attitude that management is not interested
in the detention program and that nobody cares about the
jails, the staff, or the inmates. We believe that BIA-LES
management’s abdication of responsibility for the detention
program significantly contributed to the overall malaise we
encountered during our visits. That escapes are not taken
seriously, vandalism is tolerated, or that there is little sense of
professionalism among detention officers should come as no
surprise, given management’s inattention to the many serious
problems found in the jails.

Recommendations
    1. For the purpose of providing the prominence and
       advocacy vital to ensuring that the focus on
       improving Indian Country jails does not diminish, the
       Deputy Assistant Secretary for Law Enforcement
       should become actively engaged in coordinating the
       oversight and management of the BIA-LES detention
       program.

    2. The Department should create a senior-level (GS-
       14/15) full-time equivalent (FTE) position for a
       detention professional in DOI-OLES to help provide
       increased coordination and advocacy for the Indian
       Country detention program.

    3. DOI-OLES should conduct compliance inspections at
       BIA and 638-contract detention facilities on a
       scheduled and unscheduled basis. For the immediate
       future, it is recommended that the Department OLES
       and not BIA-LES be responsible for the compliance
       oversight of the detention program.

    4. BIA-LES should establish a senior-level (GS-15)
       detention program director with proper detention
       management credentials to manage the BIA and 638-
       contract detention facilities. This position should


                              - 12 -
report directly to the BIA-LES director, coordinate
actions with DOI-OLES, and be the BIA-LES liaison
with OFMC for detention-related repairs. BIA should
provide the appointee with adequate new staff to
fulfill these responsibilities. At a minimum, the
Central Detention office should be staffed with a
Director, Deputy Director, secretary, and three
management analysts. The six regions should be
staffed with two detention specialists per region.




                   - 13 -
Chapter 2: Safety and Security

Serious Incidents   We discovered there have been 11 fatalities, 236 attempted
                    suicides, and 631 escapes at Indian Country jails over the last
                    3 years.5 We believe these numbers to be conservative given
 “What happens      that 98% of these incidents have never been reported to BIA-
 on the             LES. Our efforts to determine more precise numbers were
                    hindered because local records are often inconsistent or
 reservation        poorly maintained by jail administrators. One jail
 stays on the       administrator confirmed our concerns that incidents are
 reservation.”      underreported when he stated, “What happens on the
                    reservation stays on the reservation.”

     Fatalities     The number of fatalities reported includes the recent suicide
                    at the jail in Yakama, Washington, as well as the death of
                    Cindy Gilbert, a 16-year old student who died of alcohol
                    poisoning while in a detention cell at the Chemawa Indian
                    School in Oregon.6

                    On December 6, 2003, Gilbert (a.k.a. Cindy Lou Bright Star
                    Gilbert Sohappy) was found dead in one of the school’s four
                    cinderblock detention cells. She had been found intoxicated
                    on school grounds and had been placed into a detention cell
                    to sober up. Approximately 3 hours later, the school staff
                    entered her cell, found her to be non-responsive and
                    summoned the local emergency rescue squad. Gilbert was
                    pronounced dead by the rescue staff.

                    An autopsy determined that Gilbert’s death resulted from
                    complications of acute ethanolism. The medical examiner’s
                    report indicated Gilbert’s blood alcohol level was .37,
                    considerably over the .08 intoxication level for the state.


                    5
                      We have limited our discussion of serious incidents to deaths and
                    suicides, attempted suicides, and escapes. The statistics cited above were
                    obtained from BIA-LES and site visits. We note, however, that the
                    accuracy of many statistics provided by BIA have proven unreliable when
                    tested.
                    6
                      Although there is some question within BIA regarding supervisory
                    responsibility over the Chemawa Indian School detention facility, BIA-
                    LES included it on the “Inventory of Indian Country Detention
                    Facilities—2003.” The school’s detention facility had four cells that
                    were used to temporarily detain unruly or intoxicated students. These
                    cells are no longer used.



                                                     - 14 -
                     The OIG initiated an investigation into the death of Gilbert.
                     The investigation, currently under DOJ review, revealed a
                     history of inaction to correct a myriad of policy and safety
                     issues at the school’s detention facility. In addition, we
According to the     found that the school had no policy on having intoxicated
Acting Lead          students medically screened before incarceration.
Detention Officer,
this occurred        In December 2003, an inmate at the BIA-operated Haulapai
because the two      Detention Center in Arizona, who had been arrested for
                     public intoxication, was found hanging in an apparent suicide
officers on duty     attempt in his jail cell. Although the inmate was resuscitated,
were “more           he died 6 days later in the hospital. A preliminary
interested in        investigation determined that the inmate had been transferred
cleaning up the      from an intoxication cell where he would have received
office” than         frequent monitoring to a single cell where the attempted
observing            suicide occurred.
inmates.             Another death occurred in December 2003 at the San Carlos
                     638-contract facility in Arizona, when an inebriated inmate
                     was placed in the intoxication cell and subsequently died of
                     asphyxiation.

                     Similarly, at the BIA-operated Hopi Adult and Juvenile
                     Facility in Arizona, an intoxicated inmate died of
                     asphyxiation in 2003. According to the Acting Lead
Detention            Detention Officer, this occurred because the two officers on
officers at the      duty were “more interested in cleaning up the office” than
time were            observing inmates.
“off-line for
approximately        In March 2003, a 16-year-old female hanged herself at the
30 minutes,”         638-contract Zuni Adult and Juvenile Detention Facility in
                     New Mexico. According to the facility administrator,
handling other       detention officers at the time were “off-line for
duties, and          approximately 30 minutes,” handling other duties, and were
were not             not properly overseeing the cell population.
properly
overseeing the       In October 2002, a male inmate at the Rosebud jail in South
cell                 Dakota was found dead in his cell. The inmate had been
                     placed in the holding cell with other inmates the previous
population.          evening after he was arrested for public intoxication.
                     Detention logs indicated that officers made regular
                     observations of the cell and noted that the inmate was
                     sleeping. An investigation by tribal investigators concluded
                     that the inmate appeared to have died from asphyxia and/or
                     poisoning after consuming anti-freeze or a similar substance.
                     This death was reported to the FBI but not to BIA.



                                                 - 15 -
                                In July 2002, a male inmate at the Blackfeet Adult Detention
                                Center in Montana, who was arrested for intoxication, died
                                approximately one hour after being placed in a cell. An
                                autopsy ultimately attributed this inmate’s death to
                                appendicitis. This death was reported to the FBI but not to
 “There are no                  BIA.
 written
 procedures for                 In March 2002, an inmate was found dead in his jail cell at
                                the Pine Ridge facility in South Dakota due to an overdose of
 handling
                                medication ingested prior to being incarcerated. The victim,
 inmate                         along with another man, had been booked for intoxication.
 deaths.”                       During the booking process, the victim informed the
                                detention officer that the man accompanying him had
                                ingested multiple pills. That inmate was immediately taken
                                to the hospital for medical care; however, the victim inmate
                                who remained at the jail had also taken multiple pills and
                                later died.

                                In July 2001, an inmate at the Blackfeet Adult Detention
                                Center died as a result of a seizure. The inmate had an
                                extensive history of seizures prior to being incarcerated.

                                Since 2001, one suicide has occurred at the Shiprock Adult
                                Detention Center, a 638-contract facility, in New Mexico.
                                An inmate was placed in the isolation cell and left
                                unobserved for 2 hours, during which time he hanged
                                himself. According to the facility administrator, there are no
                                written procedures for handling inmate deaths.

                                A tragic example of BIA’s failure to remedy poor conditions
                                at Indian Country detention facilities, despite the attention
                                and publicity surrounding this issue, occurred on June 25,
                                2004, when a 39-year old inmate at the Yakama detention
                                facility committed suicide. The inmate, who had been
                                incarcerated for violating a domestic violence no-contact
Broken light fixture observed   order, was placed in isolation after attacking another inmate.
during May 2004 Yakama site     He subsequently hanged himself from a broken light fixture
            visit.              in a corner of the cell out of view of a surveillance camera
                                using a blanket and a bucket that had been left in the room.
                                Only one person, a dispatcher, was on duty that night —
                                similar circumstances occurred when another inmate
                                committed suicide at that facility in 1997. Due to the heavy
                                volume of calls for service that night, the dispatcher did not
                                conduct periodic rounds of the cellblock. The inmate’s body
                                was not discovered until 8 hours later when jail staff went to
                                check on him.



                                                            - 16 -
                                  The inmate’s death occurred 1 month after we visited the
                                  Yakama site and 2 days after the Inspector General testified
                                  before the Senate Committee on Indian Affairs about the
                                  deplorable conditions we had discovered during our site
                                  visits. The Inspector General referred to his visit to Yakama
                                  and the conditions he had personally witnessed there. The
                                  OIG’s Interim Report of April 2004 specifically addressed
                                  life-threatening issues comparable to those found at Yakama,
                                  such as poor physical conditions, inadequate staffing, and
                                  inattentive management, yet BIA-LES management failed to
                                  implement sufficient safeguards to prevent such an incident.
                                  According to detention officers, BIA-LES had not visited the
The same light fixture, used in   Yakama jail in more than 5 years and had also failed to show
  June hanging, was again         up for an inspection they had scheduled for June 22, 2004,
observed during August 2004       just 3 days prior to the inmate’s death. Detention staff also
      Yakama site visit.          reported a second BIA inspection scheduled after the
                                  inmate’s death was cancelled without explanation. BIA
                                  detention specialists did not conduct a site inspection of this
                                  troubled detention facility until September 15, 2004.

Attempted Suicides                Based on our own findings and observations noted in other
                                  reports, suicide attempts appear to be a regular occurrence at
                                  many of these facilities. Data obtained from our 27 site visits
                                  indicates a total of 236 suicide attempts over a 3-year period.
                                  The BJS reported there were 282 suicide attempts in Indian
                                  Country jails during the period of June 2001-2002 alone.7 In
                                  addition, BJS further reported that while there had been an
                                  increase of jail admissions of 32 percent for the same period,
                                  suicide attempts had more than doubled.

                                  On more than one occasion, we found multiple suicide
                                  attempts had been made by the same inmate. For instance, a
                                  review of the incident log at the BIA-operated Mescalero
                                  Detention Facility in New Mexico revealed that from July
                                  2002 to January 2004, 5 of the 15 reported incidents involved
                                  the same female detainee who, on different occasions,
                                  attempted to inflict bodily harm on herself. According to the
                                  detention officer, the inmate was usually arrested for public
                                  intoxication and, after arriving at the detention facility, would
                                  attempt to slash her wrists or hang herself with articles of her
                                  clothing.


                                  7
                                   Minton, Todd D. “Jails in Indian Country, 2002,” Bureau of Justice
                                  Statistics Bulletin, U.S. Department of Justice, Office of Justice
                                  Programs, November 2003.


                                                                  - 17 -
                               Incredibly, an individual detained at the Shiprock facility in
                               2001 attempted to hang himself seven times using articles of
                               clothing and towels left in the cell. According to the facility
In spite of the                administrator, the detention officers’ response to these
disturbingly high              attempts was quite elementary -- if the inmate tried to hang
number of                      himself with his socks, they would take his socks away; if he
                               tried to hang himself with his towel, they would remove the
suicide attempts               towel - until the inmate remained in his cell without any
at this facility,              clothing or towels.
there are still
many occasions                 In March 2004, the Yakama detention facility reported that
where a lone                   there had been an astounding 53 attempted suicides at the
dispatcher is on               facility in the previous 3 years. In spite of the disturbingly
                               high number of suicide attempts at this facility, there are still
duty and unable                many occasions where a lone dispatcher is on duty and
to properly                    unable to properly observe inmates.
observe inmates.
                               Despite the prevalence of suicide attempts, BIA-LES is
                               wholly lacking in procedures for handling and documenting
                               these incidents. Jail administrators at a number of facilities
                               were often unable to determine a precise number of suicide
                               attempts at their respective facilities due to a lack of accurate
                               recordkeeping.

                               In contrast to most detention facilities in which inmate access
                               to any materials that might be crafted into a weapon is
                               strictly monitored, in the Indian Country detention facilities
                               we visited, we observed a common practice of allowing
                               inmates uncontrolled access to knives as well as other
                               utensils that could readily be used to harm themselves or
                               others.

                               We observed inmates at Tohono O’odham in Arizona and
                               Rosebud in South Dakota using large knives to prepare food
                               in the kitchens while only being supervised by a cook. We
                               also noted that kitchen knives are stored in unlocked drawers
                               at many jails. At Sisseton/Wahpeton in South Dakota, we
Kitchen knives are stored in   observed a hammer and a hunting knife on desks that were
     unlocked drawers.         readily accessible to inmate workers who roamed freely
  Sisseton/Wahpeton, SD        throughout the facility.

                               In May 2003, a male inmate at the Rosebud jail attempted
                               suicide by slitting his wrists with a knife that he obtained
                               from the jail kitchen. A locking knife cabinet was purchased
                               after this suicide attempt to prevent the theft of knives when
                               jail staff are not present. During our site visit, however, we



                                                             - 18 -
                                 observed that the facility continues to allow inmates to use
                                 un-tethered knives while working in the kitchen.

                                 We could not identify any specific cause for what appears to
                                 be an unusually high rate of suicides and attempts in Indian
                                 Country jails. We note, however, that many inmates arrive at
                                 the jails intoxicated or under the influence of drugs. In the
                                 National Study of Jail Suicides: Seven Years Later8 the
                                 authors reported that 60.3% of the suicide victims studied
                                 had been under the influence of alcohol, drugs, or both at the
                                 time of their incarceration. The study also noted that jail
                                 suicides are more prevalent when staff supervision is
                                 reduced.
Inmate using knife in kitchen.
        Rosebud, SD              This study, as well as others, has shown that careful and
                                 thorough screening is necessary to identify suicidal
                                 tendencies, and the importance of having properly trained
                                 personnel on duty to conduct suicide screening both during
                                 intake and in subsequent phases of the inmate’s
                                 incarceration. Intake screening is not intended to be an in-
                                 depth, time-consuming evaluation, but meant to be more of a
                                 triage to detect suicidal behavior and medical requirements.
                                 At many non-Indian jails, on-duty medical staff conduct the
                                 screening, which also serves to detect most medical and
                                 mental health problems and classification needs.

                                 During our site visits, we observed that there was no
                                 consistent method of screening inmates for suicide or
                                 medical purposes. Often times, the inmate was considered
                                 too intoxicated to screen at intake and inadequate staffing
                                 precluded later screening, thus the facility never was able to
                                 gauge any potential suicidal behavior. We also found that
                                 none of the 27 jails we visited had medical staff on duty
                                 during any time. In addition, we learned that the jails do not
                                 have an established threshold for blood alcohol level for
   Hunting knife on desk.        detention officers to use in determining the need for medical
   Sisseton/Wahpeton, SD
                                 screening of intoxicated inmates. Several deaths may have
                                 been prevented with either on-site medical staff and/or BAC
                                 threshold protocols.

Escapes                          For the most part, the detention officers at the jails we visited
                                 convey stories of inmate escapes with an air of casual
                                 inevitability. In fact, our impression is one of collective

                                 8
                                  Hayes, Lindsay M. and Joseph R. Rowan, National Study of Jail
                                 Suicides: Seven Years Later, National Center on Institutions and
                                 Alternatives, February 1988.


                                                                 - 19 -
                               acceptance. In our interviews, detention officers who
                               discussed escapes told us that it is just not possible to prevent
                               inmates from escaping. Since the majority of these facilities
                               function with only a single officer on duty, officers explained
                               that they simply cannot “keep an eye” on everyone. In
                               addition, we found that some facilities do not notify local law
                               enforcement of inmate escapes. This is not only
                               disconcerting, it is irresponsible to allow escaped inmates to
                               freely travel in a community and surrounding areas while the
                               local law enforcement authorities have no information
                               regarding their escapes.
Use of handcuffs over cipher
  lock in recreation yard.
   Tohono O’odham, AZ          Physically rundown and deplorably maintained, many of the
                               facilities provide ample opportunity for escape. At one
                               facility, the chain-link fence surrounding the outdoor
                               recreation yard was held together and locked by a set of
                               handcuffs because inmates had learned the combination to
                               the cipher lock on the gate. While many of the recreation
                               yards at these facilities are fenced-in and topped with barbed
                               wire, there seems to be a universal acceptance among the
                               detention officers that if inmates want to climb over the fence
                               and escape, they will.

                               For example, male inmates at the BIA-operated Mescalero
                               facility were allowed to exercise in an outside confinement
                               area unobserved. Although this area is surrounded by a 12-
                               foot cyclone fence with two additional feet of concertina
                               barbed wire at the top, one inmate, who wanted to see his
     Recreation yard.          girlfriend, merely climbed up the cyclone fence, cutting
      Yakama, WA               himself on the concertina wire in the process, and left the
                               premises. Only one detention officer, who was inside the
                               facility, was on duty at the time.

                               At the Northern Cheyenne jail in Montana, an unguarded
                               inmate escaped from an outdoor recreation yard by climbing
“You give                      a fence topped with barbed wire. The strands of barbed wire
inmates some                   were damaged and pulled together by the inmate. No effort
exercise freedom               has been made to repair the barbed wire or to replace it with
                               concertina wire to prevent additional escapes. A detention
and then they take
                               officer at Crow Creek in South Dakota stated, “You give
off. It was easy to            inmates some exercise freedom and then they take off. It was
get out.”                      easy to get out.”

                               At the Sisseton/Wahpeton jail, we observed that the
                               recreation yard wall was only topped with poorly maintained
                               strands of barbed wire. The recreation yard contained chairs



                                                            - 20 -
                                and freestanding wooden benches that could be used by
                                inmates to escape over the wall. When we inquired about the
                                escape potential created by these items, we were told of an
                                inmate who had recently escaped over the wall utilizing a
                                chair and a door handle to climb out of the yard. Detention
                                personnel did not appear to be alarmed that additional
                                escapes were likely to occur if the benches and chairs
                                remained in the recreation yard.

                                Unsupervised inmates at the Medicine Root detention facility
                                in South Dakota escaped from the recreation yard by
                                climbing an electrical conduit onto the roof of the main
                                building, which has no fence or barriers to prevent escape.
 Chairs line recreation yard.
  Sisseton/Wahpeton, SD
                                Detention officers expressed frustration that they could not
                                let inmates use the recreation yard because maintenance
                                personnel have not taken any action to move the conduit or
                                install effective barriers along the roof to prevent future
                                escapes. Another inmate escaped because a door was left
                                open when police officers brought an individual to the jail.

                                From weakened and deteriorating locks on cell doors to
                                broken windows in inmate dormitories, the interiors at many
                                of these facilities are in extremely poor condition and do not
                                deter inmates who set out to escape. For example, the wire-
                                meshed windows in many of the cells at the White Buffalo
                                Youth Detention Center in Montana are loosely encased in a
Electrical conduit used to
         escape.
                                crumbling wall and, with the application of some pressure,
   Medicine Root, SD            can be easily removed from their housing. According to the
                                acting administrator, these “removable windows” have, in the
                                past, provided an avenue of escape for a number of detained
                                youths. As recently as February 2004, three male detainees
                                escaped through one of the windows in the day room of the
                                male dormitory after obtaining two fire extinguishers and
                                using them to spray the two on-duty detention officers.

                                Perhaps even more disturbing than the actual circumstances
                                and frequency of inmate escapes at these facilities are the
                                lack of response and importance placed on these incidents by
                                both detention officers and facility administrators alike. At
                                one detention facility, the administrator recounted an incident
                                of a juvenile escaping by stating that they “haven’t seen him
Loosely encased wire-meshed     since.” At another facility, the administrator casually
          windows.              attributed several prior escapes to poor perimeter security. A
 White Buffalo Home, MT         third jail administrator in Arizona simply stated that there are
                                too many escapes to count.




                                                             - 21 -
                            One officer at the Shiprock Adult Detention Center chuckled
                            in response to our question about escapes and said, “Oh yeah,
                            they happen.” She then recounted a story about an inmate
                            who had escaped from her in June 2003. The inmate
                            escaped on foot and in ankle-shackles while she was ushering
                            a line of inmates from the facility to the courthouse across
                            the courtyard. Since she was the only officer on duty at the
One officer                 time, she could not pursue the fleeing inmate and leave the
chuckled in                 other inmates unattended. The officer told us that she
response to our             believed that the inmate had not yet been apprehended. A
question about              review of facility logs indicated no record of the escape or of
                            the inmate being returned.
escapes and
said, “Oh yeah,             A number of inmates have escaped by just by walking away,
they happen.”               yet the jail staffs continue to allow them to work or loiter
                            while unguarded in areas where they can easily escape. We
                            observed unguarded inmate workers at Sisseton/Wahpeton
                            and Medicine Root routinely exit the jails while they work in
                            non-secure areas. At Yakama, we observed an unguarded
                            inmate sitting against a wall outside the jail in an unfenced
                            area adjacent to the parking lot. The inmate remained
                            outside of the jail several hours later. We observed another
                            unguarded inmate loitering outside the front entrance to the
                            jail during a subsequent visit to this facility several months
                            later. At Pine Ridge, we noticed four unguarded inmates
                            loitering outside of the sally port in a non-secure area only a
                            short distance from the highway. A detention officer at Pine
                            Ridge summed the problem up by stating “inmate workers
                            escape a lot — also from the hospital and from the
                            courthouse.”

                            During a visit to the BIA-operated Blackfeet Adult Detention
                            Center, the district commander told our investigators that he
                            had personally seen unsupervised inmates milling about in
                            the recreation yard from which unsupervised inmates had
                            previously escaped; however, he did not seem concerned
                            about this and had done nothing to rectify the situation. At
 Unguarded inmate outside   this same facility, in April 2002, an inmate worker,
      Yakama jail.          commonly known as a trustee, escaped and committed a
                            murder before he was eventually apprehended.

                            Several inmates at Rosebud also escaped by climbing
                            through the suspended ceiling in the dining area into a non-
                            secure area and walking out the door. This escape route has
                            not been blocked or corrected although it has been identified
                            for some time. To our amazement, inmates continue to use



                                                         - 22 -
                                 the dining area with little or no supervision.

We were told that                Detention personnel at Pine Ridge told us that an inmate
                                 escaped the night prior to our visit. The inmate kicked a cell
the exterior door
                                 door when it was opened by an officer, ran around the
had been propped                 startled officer, and escaped through an unlocked door. We
open because the                 were told that the exterior door had been propped open
jail gets “stuffy.”              because the jail gets “stuffy.” Incredibly, we observed the
Incredibly, we                   same door that the inmate used to escape propped open
observed the                     during our visit. We also learned that unsupervised inmate
                                 workers are routinely tasked to conduct work and are allowed
same door that
                                 to loiter in unfenced areas outside of the jail. The Pine Ridge
the inmate used to               jail continues to allow this practice despite their high number
escape was                       of escapes.
propped open
during our visit.                Of the escapes we were able to document during our
                                 assessment, 144 (23%) of the 631 occurred when unguarded
                                 inmates simply walked away while awaiting medical
                                 treatment at clinics or hospitals. For instance, many of the 37
                                 reported escapes at the Rosebud detention facility occurred
                                 when inmates walked away from the hospital.

                                 Inmates are regularly left in the care of medical staff or
                                 hospital security personnel who are not trained to handle or
                                 restrain inmates. An officer at Pine Ridge said, “We don’t
                                 have enough people to escort them to the hospitals.” At the
                                 Yakama detention facility, inmates who require medical care,
                                 for which the jail cannot afford to pay, are actually released
                                 from custody with the hope that they will return on their own
 Door used during escape still   after treatment. Not surprisingly, Yakama detention officers
       propped open.             commented that inmates have learned to feign illness because
       Pine Ridge, SD
                                 they know that they will be released if they claim a need for
                                 medical treatment.




                                                              - 23 -
                                                             Serious Incidents Chart




                                                                         )
                                                                      IA




                                                                       )
                                                                    38
                                                                     )


                                                              SD )
                                                                   (B




                                                                   IA


                                                           t), 38
                                                                  (6




                                                                 d)
                                                                (B


                                            (B Roo (6
                                                               SD




                                                              ne
                                                              D
                                                             AZ
                        pi i (P lt, 38 n),




                                                          ow
                                                            S




                     To M (63 (63 IA)
                        ni , W , M O )
                     Zu ma alo , C 638
                                                          ,


                                                in i),
                     Ho a du Z (6 so




                                                         )
                             Ju BIA Sp 38)
                                                      gs




                                                       A




                           , N A T (B
                                                       p
                     Ky AZ ea AZ )




                                        38 8) )
                        ul er , A mp




                                  r, 63 -BI
                     Ni aler ed Oti




                        ka uff Ute Z (



                                                     8
                                   ( ch (6
                                                  rin




                                                  A)
                                                    )
                     G Cr IA IA




                                                  e




                        se t, W (63 )




                        ha , S (63 )
                     Pi eye WA IA)




                     Sa ive D ( bal




                     Ya e B in , A
                     Ha Riv uv ho




                                                 8
                     Ro ul A 38
                     Q llup , SD (BI
                     Pu Rid e, M 38)
                                       (M a
                     Cr , M OR 1A)




                     Si roc AZ )
                     Sa bu A 8)




                     To tch D ( 8)
                                     (B (B




                     W ou dh 8)
                           et NM 3
                     Sh arl Z ( )
                        ip os 638




                     Ut no M 8)
                       es ult usk




                                               8
                                             ic
                                      J T




                          na W (6




                                              6




                       hi n am
                                              i
                                              I




                          M 'o 63
                        lt d, (Tr
                                    n (6




                        ho i, N 63
                        ow a (B




                        ya ge T




                                            (
                      ila er t.
                                   e )




                                         M




                                 O (
                             Ad iys




                                          )
                     G Riv k (F




                                          )
                     Cr aw T




                                        N




                                       A
                        em t, M




                                      A




                           R S



                                       ,
                                   (K




                                    ta




                                    (6
                       sq o,
                                     ,




                       Ch ly,
                       ne n




                       ss k,
                        ow T
                      ila e




                                  ,




                     To on
                     Ch fee




                                v




                     N. al
                              p




                           ls
                           C
                           u
                           a
                           k




                          c
                            ,




                          t
                       ac




                        le

                        le




                        ta
                        n
                      ui




                        e
                     Ky
                     Bl




                     M
          Deaths
       Non-Suicide 2     11    0    0    0    0    0 1 0          0      0     0 0 0 0             0 0 0 1                  0    0   0 0 0 0      0    0 5
           Suicide 0     0     0    0    0    0    1 0 0          0     0      0 0 1 0             0 1 0 0                  1    0   0 0 0 0      1    1 6
Suicide Attempts 9       0     8    2    0    0    4 4 9          1     17     3 41 16 0           0 12 1 4                 7    6   3 18 1 12   53    5 236
        Escapes 64       0     6   17    8    0    2 26 3        116     1     1 11 69 2           2 37 1 184               3    9   0 2 0 19    42    6 631
           Totals 75     1    14   19    8    0    7 31 12       117    18     4 52 86 2           2 50 2 189              11   15   3 20 1 31   96   12 878
                     1
                         Chemawa Indian Boarding School has detention cells and reported by BIA as a Detention Facility.
                         Incidents reported to OIG from detention facilities.
                         No Incidents Discovered.

                         Out of the 878 incidents, BIA-LES's Incident Log only reflected 22 of those incidents.
                         Therefore, BIA-LES was unaware of 98% of incidents reported to the OIG.



                                                                                                                                         Revised as of August 2004



                                        Recommendations

                                               5. DOI-OLES should ensure that BIA-LES establishes
                                                  and implements clear reporting protocols for serious
                                                  incidents occurring at all BIA and 638-contract
                                                  detention facilities. At a minimum, all officer safety
                                                  issues, inmate deaths, attempted suicides, assaults,
                                                  and escapes should be reported promptly through an
                                                  established chain of command ending with the
                                                  Director of BIA with copies to the DOI-OLES.

                                               6. BIA and 638-contract detention administrators should
                                                  ensure that any escape is immediately reported to
                                                  surrounding local, tribal, and state law enforcement
                                                  authorities.

                                               7. BIA-LES criminal investigators should immediately
                                                  respond and conduct a preliminary inquiry to
                                                  determine if a full investigation is warranted on any
                                                  reported serious incident. Their findings, in every
                                                  case, should then be reported to the Director of BIA-
                                                  LES with a copy to the DOI-OLES. All death cases
                                                  at BIA or 638-contract detention facilities, not
                                                  investigated by the FBI, should be investigated by a
                                                  BIA-LES criminal investigator.



                                                                                                - 24 -
8. BIA and tribes should explore alternatives to
   detention for intoxicated inmates. When it is
   necessary to incarcerate intoxicated inmates,
   additional detention officers should be on duty to
   assist with the additional monitoring required.

9. DOI-OLES should work with the tribes and BIA to
   establish a Memorandum of Understanding (MOU)
   with the Indian Health Service to provide on-site
   medical assistance at all detention facilities with more
   than 20 inmates incarcerated. Detention staffs should
   be adequately staffed and scheduled to accommodate
   for medical transport to hospitals when necessary.




                        - 25 -
Chapter 3: Detention Facility Staffing

                   Determining the appropriate detention staff ratio for a jail is
                   extremely complex with many variables to consider. No two
                   facilities are exactly alike. Thus, staffing requirements
                   should be determined by considering the physical size and
                   layout of the facility, inmate population, types of inmates,
                   including the need for isolation, length of average stay by
                   inmate, technology available, and the competency of the
                   staff.

                   When conducting our site visits, we learned that most of the
                   facilities operated below their authorized staffing levels, and
                   they operated below what the managers would consider
                   optimum. We discovered that 79% of the facilities fell below
One manager        minimum staffing levels on a regular basis. One manager
                   remarked, “We are often down to none” when asked if they
remarked,          ever fell below minimum staffing levels.
“We are often
down to none”      Most managers and detention professionals we spoke with
when asked if      believe there generally should be a minimum of one
they ever fell     detention officer per shift who is dedicated for the sole
below              purpose of providing security and observation of inmates.
                   There are other more scholarly views including an author in
minimum            one prominent correction publication who writes “The ratio
staffing levels.   of staff to inmates should not be the central issue. Instead,
                   the issue should be making sure the right number of properly
                   trained staff, are in the right places, at the right time, doing
                   the right things. What is important is the way the staff are
                   trained, assigned, and managed, not just how many there
                   are.”9 The author goes on to remark, “that if the detention
                   staffs are not competent or productive, simply increasing
                   their numbers will not improve facility operations.”10

                   In fact, we found that the majority of the detention facilities
                   we visited operated with only one detention officer per shift
                   and often times the officer had several collateral duties that
                   took his/her attention away from the inmates. Even more
                   disturbing was our discovery that a number of jails have
                   shifts with no detention officers on duty. In these instances,
                   dispatchers, cooks, or police officers fill in while continuing
                   to do their primary jobs.

                   9
                     Krauth, Barbara. Staff Inmate Ratios: Why It’s So Hard to Get to the
                   Bottom Line, L.I.S.I., September 1988.
                   10
                      Ibid.


                                                    - 26 -
                 For example, the dispatcher at the Crow Creek detention
                 facility is regularly called upon to watch the inmates while
                 performing dispatch duties and must prepare meals for the
                 inmates as well. One Crow Creek employee commented,
                 “The dispatcher works as an officer, the dispatcher cooks.
                 Everyone shuffles around. We’re jacks of all trades.” The
                 Northern Cheyenne detention facility normally has only one
                 detention officer on duty. The cook fills in for the detention
                 officer two or three times weekly when the detention officer
                 transports inmates for medical treatment or court
                 appearances. At the 55-bed Blackfeet Adult Detention
                 Center, the lone detention officer stands in for other
                 personnel several times a week and must physically leave the
                 jail to prepare meals, leaving the inmates unsupervised.

“The             The San Carlos facility in Arizona has only four correctional
dispatcher       officers on staff to operate what they feel is an overcrowded
works as an      facility. To address this situation, the facility has placed a
officer, the     24-hour, 7-day a week “lockdown” on inmates. Although
dispatcher       lockdown is not unusual as a short-term solution for an acute
                 problem in a detention facility, it could lead to an unsafe and
cooks.           dangerous environment long-term. The detention officer on
Everyone         duty has no one for back up if a medical emergency or
shuffles         conduct problem arises. When an officer is working alone,
around.          he or she must either wait for assistance or act independently,
We’re jacks of   both of which place officers and inmates in a potentially life-
all trades.”     threatening situation.

                 Indian Country jails currently range in size from 2 to 120
                 beds. While we recognize that small jails, which are often no
                 more than temporary holding cells, may be able to operate
                 with one detention officer/dispatcher on duty as long as they
                 are supported by other law enforcement personnel, in most
                 instances, the practice of operating a jail that houses inmates
                 more than 48 hours with only one detention officer on duty is
                 a recipe for disaster.

                 Detention officers must book and process new inmates
                 brought to the jail, intercede when altercations occur, make
                 regular rounds of the jail to keep inmates under surveillance,
                 manage/watch suicidal or violent inmates, respond to
                 emergencies or injuries, transport inmates for medical care,
                 oversee visitors, log activities, and manage other operational
                 functions of the jail. It is unreasonable to expect one
                 detention officer to perform all of these duties under normal



                                             - 27 -
                           conditions. During periods of increased inmate population,
                           such as weekends and holidays or when jails are
                           overcrowded, the challenges faced by a single detention
                           officer become overwhelming.

                           Lone detention officers are also at great risk of being
                           assaulted, injured, or even killed during the performance of
                           their duties. Inmates may be encouraged to attack a lone
                           detention officer since they know that many of these officers
                           have nobody to come to their rescue. Occasionally, other
                           inmates intervene to help a detention officer, as occurred at
                           Mescalero where a lone female detention officer was
                           confronted at knife-point by a former inmate who entered the
                           facility through an unlocked door. Tragedy was averted
                           when the officer locked herself into a detention cell while a
                           trustee convinced the intruder to move to another part of the
                           jail and to leave the officer alone. Another inmate then
                           summoned the police. At the Blackfeet Adult Detention
                           Center, a dispatcher was alerted to an assault on the lone
                           detention officer by inmates pounding on the walls.
                           Unfortunately, this incident does not appear to be an
                           exceptional case; the BIA district commander told us, “Every
                           officer here has been assaulted.” Detention officers should
                           not have to place their hopes of being rescued on inmates if
                           they are assaulted or attacked.
Sign indicating staffing
       shortage.
                           Inadequate staffing greatly increases the potential for BIA
   Crow Creek, SD          liability when injuries, deaths, or escapes happen. We
                           believe there is a direct correlation between insufficient staff
                           and the number of serious incidents and escapes that occur at
                           Indian Country jails.

                           In most cases, Indian Country jail staffing levels are so low
                           that there are no detention officers available to fill in when
                           officers are sick or otherwise unable to be on the job. Many
                           unfilled vacancies further contribute to the inability of jails to
                           have a sufficient number of detention officers on duty and
                           require detention officers to work unsafe levels of overtime.
                           A detention officer at Crow Creek claimed it is not
                           uncommon to work up to 16 hours per day. Detention
                           officers at other jails similarly reported that they must work
                           double shifts when co-workers are sick or vacancies remain
                           unfilled for long periods of time.

                           Several detention officials reported that it is not uncommon
                           for vacancies to go unfilled because of a lack of qualified



                                                         - 28 -
applicants. Not surprisingly, we were told that many
applicants are not willing to move to remote areas with poor
housing, low pay, and undesirable working conditions.

The National Institute of Corrections (NIC) in Longmont,
CO, notes that on average, it takes 5 FTEs to staff one post
on an 8-hour shift, 7 days per week. In contrast, BIA jails
have approximately one FTE per shift for each jail. BIA
management’s failure to fill vacancies and/or increase
staffing to sufficient levels directly impacts the poor
operation and management of the jails for which it has
responsibility.

BIA management has been aware of the unsafe conditions
created by insufficient staffing for more than 6 years with
little evidence to indicate that there has been more than a
token effort to take corrective action. In his June 3, 1998
testimony, former Assistant Secretary Gover testified about
the danger of inadequate staffing. Gover stated, “Most of the
facilities have limited staff on duty at any given time to
adequately manage inmates. For example, during a shift, the
same person may serve as jailor, dispatcher, receptionist and
cook. Clearly, this frequent predicament causes an
unreasonably dangerous situation for the employees as well
as the inmates.” Gover’s testimony echoed many of the
findings noted in the 1997 DOJ report.

Recommendations
   10. Staffing shortages at BIA and 638-contract detention
       facilities that are related to officer safety should be
       identified by the BIA-LES and corrected
       immediately. DOI-OLES should oversee this effort.

   11. BIA-LES in collaboration with 638-contract
       programs should develop staffing models and
       methodologies for BIA and 638-contract detention
       facilities. DOI-OLES should oversee this
       developmental effort.




                            - 29 -
12. The DOI Law Enforcement and Security Board of
    Advisors should develop recruiting standards and
    guidelines for BIA detention officers. BIA-LES
    should then assist tribal detention programs in
    developing recruiting standards and guidelines for
    tribal detention officers.




                        - 30 -
Chapter 4: Detention Facility Maintenance

                                  We found the condition of the majority of the jails we visited
                                  to be abysmal — the result of years of neglect and failure to
                                  perform even routine repairs in a timely manner. In contrast,
                                  local county jails we visited for benchmarking purposes are
                                  in significantly better condition than the Indian Country jails
                                  of the same age. 12 In general, the county jails, which
                                  received sufficient upkeep, clearly had many more years of
                                  service remaining while many of the Indian Country jails are
                                  dilapidated to the point of condemnation.

                                  Records reflect that BIA and the tribes have consistently
   Inoperable sinks in cells.
       Mescalero, NM              failed to maintain their detention facilities. In the OIG Audit
                                  Report, Maintenance of Detention Facilities, Bureau of
                                  Indian Affairs, issued in August 1994, the findings reflected,
                                  in part:

                                  “The Bureau of Indian Affairs and Indian tribes have not
  Ten years                       adequately maintained detention facilities or corrected
  from our                        hazardous health and safety conditions at these detention
  earlier audit,                  facilities. Most of the facilities we visited were in unsanitary
  conditions                      conditions and/or disrepair.”
  remain the
                                  The 1994 audit determined the lack of maintenance and
  same.
                                  repairs at the facilities were attributed to BIA and the tribes
                                  not (1) having established and implemented preventive
                                  maintenance programs, (2) specifically assigning and holding
                                  personnel accountable for correcting deficiencies at BIA-
                                  operated facilities, or (3) adequately monitoring tribal
                                  contractors to ensure proper maintenance of tribally operated
                                  facilities. The audit also reported that the conditions and lack
                                  of attention had been on-going for several years prior to the
                                  audit.

                                  BIA OFMC is responsible for the maintenance and repair of
                                  BIA-owned detention facilities. OFMC is tasked to manage
                                  maintenance funding and to coordinate repairs for all
   Broken glass in cell window.   structures owned by BIA. OFMC operates independently of
            Hopi, AZ              BIA-LES; consequently, jail administrators have no direct
                                  authority over local maintenance personnel and do not have
                                  the authority to prioritize maintenance and repair work at


                                  12
                                       We visited seven jails in nearby communities off the reservation.


                                                                      - 31 -
                            their facilities. OFMC personnel determine repair scheduling
                            and prioritization for all BIA buildings with little thought of
                            the unique needs of detention facilities. This diminishes any
                            sense of ownership that jail administrators and detention
                            officers have for the maintenance and upkeep of their facility.

                            The prevailing attitude of the detention personnel we
                            encountered is that problems reported to OFMC, once made,
                            are no longer their concern. This results in little, if any,
                            follow-up to determine prioritization or repair status.
                            Additionally, few jail administrators conduct formal weekly
                            or even monthly inspections of their facilities as required
                            under current BIA standards for operation. These are the
   Missing pump/leaking     very standards that were implemented to address and respond
          water.            to the findings of the 1994 OIG Audit.
   Medicine Root Jail, SD
                            Unless this trend is reversed, many of the newer jails in
                            Indian Country will prematurely deteriorate due to a similar
                            lack of upkeep and maintenance. Relatively new jails we
                            visited are already showing signs of accelerated aging and
                            wear due to delay of necessary repairs. For instance, the
                            main control panel for monitoring access at the 4-year-old
                            Ute Mountain detention facility has not worked for more than
                            2 years. Although this problem was reported to OFMC 2
                            years ago, it is still broken.

                            An egregious example of a deteriorating newer jail was
We noted that many          found at the juvenile detention facility at the Kiyuska O’Tipi
of the maintenance          Reintegration Center, which was constructed in 1995. Door
                            lock indicator lights do not function properly, failed hot
shortcomings have a
                            water heaters have not been replaced, trim pulled from the
direct impact upon          roof by a storm has gone unrepaired for several years leaving
officer and inmate          parts of the structure exposed to the elements, the entry gate
safety; yet there is        to the jail compound is non-functional, a leaking water
little indication that      recirculation pump leaves puddles of water in a utility room,
OFMC or detention           external security light fixtures remain broken, and showers
                            and fire sprinkler heads damaged by inmates are in disrepair.
personnel place any
emphasis on                 We noted that many of the maintenance shortcomings have a
expediting repairs          direct impact upon officer and inmate safety; yet there is little
affecting safety.           indication that OFMC or detention personnel place any
                            emphasis on expediting such repairs. For example, virtually
                            all of the Plexiglas in the jails at Rosebud and at Zuni in New
                            Mexico, as well as other locations, has been scratched,
                            burned, and damaged to the point that it is extremely difficult
                            for detention officers to see into cells to check on inmates



                                                         - 32 -
                           prior to entry. According to Rosebud personnel, this
                           condition has been reported to OFMC for years, but nothing
                           has been done to repair the Plexiglas.

                           Fire sprinkler heads at a number of facilities were inoperable.
                           Even more disturbing, detention officers at Yakama reported
                           the entire fire suppression system had not functioned for
                           years. We observed that some fire extinguishers at Yakama
                           had not been inspected since 2001. We also discovered that
                           many cameras and inmate monitoring systems did not work
                           or worked poorly. At Tohono O’odham, the camera
                           monitoring a cell for high risk inmates is pointed to the
                           ceiling while at the Crow jail, several cameras cease
 Scratched and burned      functioning on an intermittent basis. In addition, the keys to
       Plexiglas.          the cells at Tohono O’odham are so worn that they do not
  Rosebud Sioux, SD        reliably unlock or lock the cell doors. This could easily
                           result in a tragedy in the event of a fire.

                           We also found that many maintenance shortcomings
                           impacted sanitation. In all too many instances we observed
                           toilets that do not flush, showers and sinks that do not work,
                           and inoperative hot water heaters that have not been replaced.
                           At Pine Ridge, the toilet in the “drunk tank” has been
                           inoperable for months. This situation causes sanitation
                           concerns because intoxicated inmates in the “drunk tank”
                           frequently need to urinate and may not be able to wait until
                           officers can move them to other cells. This also places
                           detention officers at risk because they must frequently move
                           inmates to other occupied cells. According to detention
                           personnel at both Pine Ridge and Crow detention facilities,
                           they experience instances in which waste flushed down one
                           toilet surfaces in another toilet. The plumbing issues at
                           Shiprock are so severe that health inspectors closed the jail
                           for several months in 2003. We learned that the Shiprock jail
                           was again closed for sanitation reasons in June 2004. Health
Camera in high-risk cell   inspectors have since allowed a small portion of the jail to be
    faces ceiling.         reopened.
 Tohono O’odham, AZ
                           We encountered numerous instances in which even routine
                           maintenance was not being accomplished. It was not
                           uncommon for us to observe broken light fixtures, peeling
                           paint, broken door locks, inoperable or malfunctioning
                           kitchen equipment, and ventilation problems at many of the
                           detention centers. We noted that several air vents at
                           Northern Cheyenne and Crow Creek were so clogged with
                           dust and debris that little air could flow through them.



                                                       - 33 -
                   Detention personnel at the Kiyuska O’Tipi Reintegration
                   Center reported that a replacement water recirculation pump
                   sat uninstalled for almost 6 months while a malfunctioning
                   pump continued to leak water into a utility room. We were
                   also told that a commercial grade toaster and fryer have
                   remained unused since the jail was constructed in 1995
                   because OFMC personnel have not installed a 220-volt
                   circuit.

Maintenance        There is an enormous backlog of items that require repair,
                   but little to no effort has been made to correct the majority of
Funding            these problems. BIA officials originally reported that they
                   had approximately $1.4 million available in FY2004 for
                   facility upkeep but had identified approximately $30 million
                   in necessary repairs. BIA subsequently reprogrammed funds
                   to increase the money available for detention facility
                   maintenance to approximately $4 million to address
                   maintenance issues and deficiencies publicized as a result of
                   media attention from our interim assessment. 13 This not only
                   demonstrates that BIA failed to take a proactive approach in
                   managing the detention program prior to OIG interest, it also
…BIA had the       confirms that BIA had the means to accomplish additional
                   repairs, but not the will.
means to
accomplish         Our examination of the Facility Management Information
additional         System (FMIS) found that there are many duplicate and
                   inaccurate entries. We found that the data provided to us,
repairs, but not   which OFMC personnel claimed represented jail repair and
the will.          maintenance needs, included new construction data. For
                   example, we discovered one entry in FMIS in the amount of
                   $979,802 was for the construction of a new jail. We further
                   found there were monetary values attributed to facility
                   maintenance, such as a jail’s failure to have a written
                   evacuation plan, inadequate staffing, no fire drills, fire
                   extinguisher training for staff, security study, and
                   overcrowding that are clearly more operational than
                   maintenance issues.

                   Our review of the FMIS data that was initially provided to us
                   disclosed outstanding maintenance requirements totaling
                   $30.4 million. Subsequent to our request for this data, BIA
                   OFMC personnel began to analyze its information and
                   provided revised FMIS data showing outstanding


                   13
                     Anderson, David W., Hearing on Indian Tribal Detention Facilities,
                   Statement to U.S. Senate Committee on Indian Affairs, June 23, 2004.


                                                   - 34 -
maintenance backlog costs of $27.8 million and eventually
$26.6 million. This $3.8 million discrepancy represents, yet
again, BIA’s neglect and mismanagement of the detention
program.

We discussed our concerns about these inaccuracies with
senior OFMC personnel and provided them with examples of
questionable entries attributed to maintenance or repair. In
response, OFMC provided revised data approximately 1
week later showing maintenance and repair backlog costs of
$23.2 million reducing the total yet another $3.4 million. We
believe that additional analysis of FMIS would result in a
further reduction of the estimated maintenance costs by
another $1 or $2 million. Regardless, the many inconsistent
and questionable entries significantly diminish the value of
FMIS as a management tool for OFMC and for BIA-LES.

In July 2003, GAO expressed concerns about the quality of
data being entered into FMIS. In its report on Indian School
Maintenance, GAO observed that “most measures for
controlling the quality of new data BIA employees are
entering into the system for individual schools are not
working well” and that “nearly half of the proposed data
entries coming through the system are inaccurate and
incomplete.”14 Given that our own examination of FMIS
identified so many inaccuracies, we must conclude that BIA
management simply does not have an accurate accounting of
the maintenance needs or estimated repair costs. Our
findings also indicate that BIA is clearly not effectively
addressing GAO’s recommendations that “BIA establish
better guidance and performance expectations for employees
who are responsible for entering and reviewing the accuracy
and completeness of FMIS data” and “periodically analyze
the extent and type of data errors being found during review
in order to identify training needs and other strategies for
addressing any continuing problems.”15

It remains clear that BIA does not have sufficient funds to
correct known maintenance deficiencies. With appropriate
management and oversight, however, many of the identified
problems might have been prevented and the severity of
many others could have been reduced if repairs were made in

14
   Government Accountability Office, Bureau of Indian Affairs Schools,
New Facilities Management Information System Promising, but Improved
Data Accuracy Needed, GAO-03-692, Washington, DC, July 2003.
15
   Ibid.


                               - 35 -
                      a timely manner.

                      The poor coordination and communication between BIA-
Maintenance           LES and OFMC personnel at all levels leaves maintenance at
Accountability        detention facilities an orphan. Clearly, the unique
                      maintenance needs at the jails has not been recognized. For
                      example, jail administrators at Pine Ridge purchased gun
                      lockers months ago for police to secure their firearms before
                      entering the jail. Detention personnel advised that the gun
                      lockers still remain uninstalled, and police officers who bring
                      prisoners to the jail have nowhere to secure their weapons.

                      Vandalism by inmates has caused a significant amount of the
                      maintenance issues reported by jail staff. This destruction of
                      property is costly, adversely impacts the safety of inmates
One jail              and staff, and diminishes the comfort and cleanliness of the
administrator         facility. Rarely are inmates who cause damages held
                      accountable. With no consequences for their actions, inmates
commented that
                      are not deterred from causing further damage. There is no
“the staff sets the   incentive for inmates to change their behavior. In contrast,
atmosphere” at        we observed that local county jails we visited had virtually
the jail.             no graffiti or noticeable damage because inmates knew there
                      were consequences for damaging the facility. The sheer
                      volume of damage caused by inmates at Indian Country jails
                      indicates that vandalism is accepted and cannot be prevented.
                      We found no indication that BIA management held jail
                      administrators or detention staff accountable for preventing
                      vandalism damage.

                      We noted a few facilities, such as Ute Mountain, Gila River,
                      and Salt River, where little or no vandalism was observed.
                      The management at these facilities required detention staff
                      and prisoners to keep the facility clean and to properly
                      dispose of trash. One administrator commented that “the
                      staff sets the atmosphere” at the jail.

                      Recommendations
                         13. BIA OFMC and BIA-LES should immediately
                             establish an effective system for prioritizing repairs
                             that have any impact on inmate or detention officer
                             safety. They should also review FMIS to identify and
                             remedy inaccurate and redundant entries and
                             implement quality control measures to reduce the risk
                             and occurrence of improper entries.




                                                  - 36 -
Chapter 5: Funding of the Detention Program

                                    BIA is required to provide law enforcement services on
       Detention Program
                                    reservations under the Indian Law Enforcement Reform Act
      Supplemental Funding          of 1990 (Public Law 101-379). Detention facilities are
 Presidential Initiative:
                                    operated and funded by the BIA, tribes, or a combination of
      o FY 1999 - $1.8 million      both. BIA and 638-contract programs are funded under the
      o FY 2000 - $4.0 million      law enforcement budget through the Department’s annual
      o FY 2001 - $4.2 million
                                    appropriation.
                    $10 million

 New Facilities Funding:            In the last 4 years, BIA received $637 million for law
     o FY 2002 - $ 5.0 million      enforcement services. In addition, since 1999, BIA-LES has
     o FY 2003 - $ 5.1 million      also received supplemental funding totaling $31.5 million
     o FY 2004 - $11.4 million
                                    specifically designated for hiring detention officers and
                    $21.5 million   preparing new facilities for operation. This supplemental
         TOTAL      $31.5 million   funding includes $10 million allocated from FY1999 to
                                    FY2001 to hire an additional 305 detention officers as a
                                    result of the Presidential Initiative for Law Enforcement in
                                    Indian Country; $5 million in FY2002, to hire detention staff
     Bureau of Indian Affairs       needed for new facilities; $5.1 million in FY2003 was
    Law Enforcement Services        reprogrammed by BIA-LES; and an additional $11.4 million
         Annual Funds
                                    in FY2004 to prepare new facilities for operation.
     o   FY 2001   - $149 million
     o   FY 2002   - $158 million   We discovered that BIA-operated facilities actually only
     o   FY 2003   - $160 million   received $3 million of the $10 million allocated to hire 94
     o   FY 2004   - $170 million   additional detention officers. They had only hired 58 officers
                                    as of the end of FY2001. BIA was unable to determine if the
                                    remaining $7 million, which was specifically designated for
                                    hiring additional detention officers for the 638-contract and
                                    self-governed facilities, was in fact used for that purpose.

                                    Since 2002, BIA has only filled a mere 13 positions at BIA-
                                    operated facilities. Furthermore, BIA-LES told us funds
                                    remaining from budgeted but unfilled positions are ultimately
                                    absorbed into the law enforcement program for non-detention
                                    activities.

                                    BIA-LES failed to provide us with their budget submissions
                                    for the last 3 years when we requested them. BIA-LES
                                    officials indicated that they were unable to locate documents
                                    or documentation pertaining to their budget requests. An
                                    inquiry with BIA budget personnel revealed that they also



                                                                - 37 -
                     could not locate any budget requests or projections for BIA-
                     LES. A BIA budget official advised BIA-LES may not have
                     submitted budget proposals if they were not requesting an
                     increase in their budget. We later learned that BIA-LES
                     managers use historical funding levels with little or no
                     increases for their budget requests. BIA-LES managers
                     indicated that there has been no change in the level of their
                     operating funds for the last 3 years with the exception of
                     increases associated with new facilities.

Budget Projections   BIA-LES does not seek to obtain accurate or realistic budget
                     projections or plans from responsible local officials, such as
and Planning         police chiefs or detention administrators. We found that
                     most jail administrators and police chiefs we interviewed
                     make no effort to conduct an accurate budget analysis or
                     construct a realistic budget projection. They simply expect to
                     receive the same level of funding that was received in prior
                     years with little or no variation. For instance, an official at
                     one BIA-operated facility stated that they look at the
                     previous years’ funding to figure out the current budget
 “The funds stay     because “the funds stay the same each year — there are no
 the same each       increases.” Another official stated, “They give us what they
 year -- there are   want to give us.”
 no increases.”      BIA’s failure to make any effort to assess the true cost of
                     operations or to create an accurate budget projection becomes
                     a self-fulfilling prophecy. This failure not only impacts the
                     detention program but also impacts the other three
                     components that fall under BIA’s law enforcement budget.
                     We believe that the true operational cost of the BIA detention
                     and law enforcement programs is much greater than their
                     current appropriations. BIA cannot address any of its
                     funding difficulties without advocacy. Successful advocacy
                     requires accurate cost assessments and budget projections.

                     Our efforts to determine the percentage or amount of BIA-
Fund Designation     LES funding used for detention were unsuccessful because
                     BIA-LES does not designate separate budget line items for
                     detention. We found that funding is allocated to local
                     officials by BIA-LES, usually to police chiefs, who
                     determine the amount of funding to provide to each of the
                     programs under their responsibility. Typically, no
                     methodology is applied to the percentage allocated to each
                     program nor is there an accurate recording of how the money
                     is used. In most instances, the largest percentage of the funds
                     are used for uniformed police and criminal investigation



                                                 - 38 -
                             leaving inadequate funds for detention operations.

                             An official at the 638-contract Rosebud detention facility
   “We wind up on            reported that only 16% of the local law enforcement budget
  the short end of           is allocated for detention services. Most of that funding
  the allocation             supports personnel costs, leaving very little money for other
                             needs such as food for inmates and training for detention
  table.”                    officers. One chief of police, who is also responsible for
                             detention services, told us that 90% of the funds his
                             department receives support salaries, with the remaining
                             funds used for major needs such as equipment. This same
                             chief also noted that if he had to choose between his police
                             department or detention needs, he would most likely fulfill
                             the police department’s needs first. A detention officer at
                             San Carlos in Arizona summed his plight up well by stating,
                             “We wind up on the short end of the allocation table.”

                             We find it troubling that BIA-LES management exercises so
                             little oversight of these budgeted monies and simply
                             distributes funds without any guidelines to ensure that all the
                             programs for which they are responsible receive sufficient
                             and balanced funding. Although we recognize the difficulty
                             of balancing the funding needs of a police department with
                             the needs of a detention program, the gross inequities that we
                             observed at many locations incapacitates detention managers
                             to adequately staff, operate, and maintain their facilities. We
                             believe that the designation of specific funds for detention is
                             imperative for the efficient and effective operation of
                             detention facilities.

New Facility Funding         Since 1997, DOJ has provided over $150 million in
                             construction grants to tribes for building new detention
   New Facility Funding      facilities. These grants cover facility construction only. BIA
      FY 1997-2003           is then responsible for funding a facility’s operational
        1997 - 2             requirements. As noted earlier, BIA-LES has received $21.5
        1998 - 2
                             million since 2002 for staffing and operating new facilities.
        1999 - 13
        2001 - 2             Given the poor coordination and planning of new jails
        2002 - 3             between BIA and DOJ, however, facilities have been built
        2003 - 2             that cannot be opened.
    Beds in New Facilities
                             According to an April 2004 status report, DOJ was scheduled
   30%     1-35 beds
   40%     35- 70 beds       to have completed 13 jails; yet today only 2 of those
   15%     70-105 beds       completed jails are actually opened and occupied. Nine
   5%      105-130 beds      completed jails are not occupied because of staffing
   10%     130-160 beds      shortfalls. For example, a new jail at San Carlos was
                             completed in May 2004, but remains unoccupied. BIA-LES



                                                         - 39 -
                   managers reported that it will be another 6 to 10 months
                   before this jail can be utilized even though San Carlos
                   received $2.7 million in FY2004 to fund facility operations.

                   The Ute Mountain detention facility, which is less than 5
                   years old, was constructed with 54 beds for adult inmates and
                   22 beds for juvenile inmates. We found the juvenile section
                   of this facility vacant and unused due to lack of staffing.
                   When we inquired about this idle facility, BIA-LES
                   management reported that they plan to open the juvenile
                   section in the next few months.

                   The Eastern Nevada detention center in Owyhee, Idaho,
                   which was built under a $4.2 million DOJ grant, remains
                   vacant because it failed, unexplainably, to be built to Federal
BIA-LES could      standards. An additional $250,000 was awarded by DOJ in
                   September 2003 to correct deficiencies related to fire walls,
not provide us     sprinkler systems, and alarm systems. BIA detention staff
with expenditure   that had been hired for this facility are being utilized at other
data for $9.8      jails until the facility can be opened. We believe that BIA-
million of the     LES management’s lack of a comprehensive plan to recruit,
$11.4 million      hire, and train staff for these new facilities, along with failing
received in 2004   to properly supervise construction of new facilities, further
                   illustrates their overall indifference to the detention program.
for opening new
facilities.        BIA-LES officials complained that once DOJ became
                   involved in constructing new facilities, BIA priorities for
                   these jails were not considered. According to them, new jails
                   went to the best grant writers, not those with the most need.
                   In addition, BIA officials also noted the lack of coordination
                   between DOJ, BIA, and the tribes. The lack of cooperation
                   and communication between DOJ and DOI was further
                   emphasized in the IACP Indian Country summit comment
                   and recommendation that both Departments should improve
                   and strengthen their interagency cooperation and
                   communication to provide more effective services in Indian
                   Country.16

                   In August 2003, BIA reprogrammed $5.1 million to tribes
                   that were currently constructing detention facilities using
                   DOJ grants. These funds were distributed so that the tribes
                   could prepare the facilities for occupation. BIA specifically
                   noted that the funds would be tracked to ensure that they
                   were used exclusively for hiring detention staff and


                   16
                        Improving Safety in Indian Country, p. 11.


                                                       - 40 -
                      purchasing the necessary equipment to open facilities in a
                      timely manner. When asked, BIA-LES was unable to
                      provide data showing how the reprogrammed funds were
                      spent because they had not actually tracked the funds.
                      Additionally, BIA-LES could not provide us with
                      expenditure data for $9.8 million of the $11.4 million
One BIA-LES           received in 2004 allocated for opening new facilities.
official noted, “It   BIA-LES management officials stated that tribes under 638-
would probably        contracts and self-governance tribes have never been
be a good idea to     required to provide BIA with reports on how any law
track those funds,    enforcement funds are spent. As a result, BIA does not
wouldn’t it?”         know whether funding designated for pre-occupancy needs
                      for new jails was actually used for the detention program.
                      One BIA-LES official noted, “It would probably be a good
                      idea to track those funds, wouldn’t it?” in response to our
                      inquiries. We are gravely concerned that this failure to
                      provide oversight has or will result in the actual misuse of the
                      funds.

Internal Controls     We are also concerned about internal controls in this area.
                      We noted several inconsistencies in reported amounts of
                      expenses between BIA-LES and the detention facilities when
                      reviewing BIA-operated facility records. Moreover, when
                      comparing expense data obtained from individual facilities
                      with BIA-LES information, we found that none of the facility
                      amounts were consistent with the BIA-LES figures for 2002
                      and only one amount matched 2003 data.

                      We further found that BIA was unable to accurately
                      determine if $7 million of the $10 million of supplemental
                      monies it received from FY1999 to FY2001 to hire additional
                      detention officers was actually used for its intended purpose.
                      BIA-LES managers indicated that, once again, they had not
                      required contract or self-governed detention facilities to
                      document or report how these funds were used. Even more
                      disturbing, BIA-LES managers also told us that if any of the
                      funded positions are not filled, the money is automatically
                      absorbed into the law enforcement program for other uses,
                      which is, of course, contrary to the designated appropriation
                      specified by the Congress.

                      Theft and misuse of funds historically occur when there are
                      no internal controls and the threat of discovery is minimal.
                      From an accounting standpoint, BIA-LES does not use sound
                      business practices for planning, accounting for, and



                                                   - 41 -
                    monitoring the use of detention funds, nor is anyone held
                    accountable for the proper management of detention program
                    funds. This overall neglect of detention program funding
                    oversight has created an environment in which fraud can be
                    perpetrated with impunity and waste can continue
                    undiscovered, because nobody at BIA is paying attention.
                    Without the implementation of an internal control system
                    where detention funding and expenditures can be accurately
                    tracked and reported on a regular basis, misuse or theft of
                    designated funds will likely, or may already have, occurred.
                    We find no excuse for BIA-LES’ inattention to funding
                    issues and yet another unfortunate example of inattention and
                    neglect of the detention program.

Public Law 93-638   Of the 72 detention facilities in Indian Country, 46 receive
Contract Funding    funding for law enforcement services under Public Law 93-
                    638. During our assessment, we reviewed 16 detention
                    facilities that are operated under 638-contracts. We found
                    that funds for the detention program are not specified and
                    contract terms and conditions are not always enforced. Tribal
                    agencies are often not held accountable for failing to comply
                    with contract terms and conditions. For example, a FY2001
                    Single Audit Report for the Rosebud Sioux Tribe identified
                    $2.5 million in questionable costs regarding federal funds
                    used for tribal programs that were not in compliance with the
                    contract agreement and related laws and regulations. The
                    report recommended that specific terms or controls and
                    procedures be implemented to ensure that these funds were
                    safeguarded from unauthorized use.

                    In another similar situation, a BIA contracting officer
                    reported that she was unable to enforce the terms of a
                    contract because the tribe refused to allow her access to their
                    juvenile facility for 7 years. Only after the contracting
                    officer threatened to withhold funding was she allowed to
                    conduct this review. We find it remarkable that no action
                    was taken for 7 years and that BIA-LES took no action to
                    intervene on her behalf.

                    We are equally concerned that BIA’s failure to enforce the
                    terms of the contracts or to provide adequate oversight over
                    638-contract funds has created an environment in which
                    fraud can thrive and exacerbates the potential liability for
                    BIA and the Department. During our visit to the White
                    Buffalo Home, a detention officer reported that the Tribal
                    Council Chairman authorized the use of 638-contract money



                                                 - 42 -
in November 2003 to fund a horse trip for students who were
not detainees or affiliated with the detention facility in any
way. We subsequently found support for the officer’s
allegation when we discovered a check written on the White
Buffalo Home account for the event.

We also found that a male detention officer at the White
Buffalo Home raped a 17-year old female inmate in October
2002 when he was tasked to transport her for medical
treatment. The detention officer was convicted after
confessing to the crime. According to the report of
investigation, the perpetrator had a prior criminal record but
an “appropriate background investigation” had not been
conducted according to the requirements of the contract. We
learned that the perpetrator was related to a tribal council
member. BIA’s ineffective oversight of this particular
contract is especially disturbing since BIA had to take over
control of the nearby adult jail and police department due to
serious problems associated with the tribe’s operation of the
law enforcement and detention programs.

Funding for detention services is generally not specified in
the terms and conditions of 638-contracts. A review of the
sixteen 638-contracts determined that the BIA had allocated
at least $61 million for law enforcement program
management from FY2001 through FY2003. However, we
were only able to trace funds totaling about $7 million
(11%), which had been budgeted for contract-managed
detention facilities.

In our opinion, language used in the majority of 638-
contracts directly contributes to the inadequate funding and
operation of detention programs. BIA cannot ensure that
necessary detention services are provided for without
establishing and implementing specific funding, expenditure,
and operational requirements. Specific contract requirements
would not only improve the ability of BIA to monitor these
programs and to verify that designated funds were actually
used for detention services but would also prevent tribes
from reallocating much needed detention program funds or
exerting undue influence on the operation of the program.




                            - 43 -
Recommendations

  14. BIA should establish and implement a single line item
      budget for all BIA-LES detention facilities and
      expenses. BIA-LES should require 638-contract
      detention facilities to implement similar cost tracking
      practices.

  15. BIA should utilize accurate budget projections that
      incorporate future funding requirements when
      preparing funding requests rather than just using
      historical data. As part of future funding
      requirements, BIA-LES senior officials and local
      detention administrators should identify any existing
      needs and/or deficiencies so that these issues can be
      properly addressed.

  16. DOI-OLES should work with BIA, tribes, and DOJ to
      develop strategic plans for jail replacement and
      renovation. DOI-OLES should assist BIA-LES with
      developing a comprehensive needs assessment to
      ensure that jails are built and sized appropriately.

  17. BIA should implement internal control procedures
      and proper management oversight to ensure that BIA
      funding and expenditures are accurately tracked and
      reported on a regular basis.

  18. A standard law enforcement and detention service
      clause should be developed and used in each and
      every Public Law 93-638 contract for BIA law
      enforcement and detention services. The clause
      should require at a minimum that: (1) law
      enforcement and detention funding be accounted for
      and used for its intended purpose and (2) serious
      incidents be promptly reported to BIA-LES as a
      condition of the contract.




                          - 44 -
Chapter 6: Detention Program Training

                               Providing detention officers with certified training is also a
                               critical element in ensuring that detention facilities are able
                               to operate safely and securely, in addition to reducing
                               potential liability for acts of untrained personnel.
                               Specifically, we found that 52% of all the detention officers
                               at the sites we visited had not received detention officer
                               training. We also discovered numerous situations where
                               detention officers were working for long periods of time
                               without having attended the required IPA detention officer
                               training. Examples of BIA-LES management’s disregard for
                               timely training include instances where one detention officer
                               at Haulapai and one detention officer at the Kiyuska O’Tipi
                               Reintegration Center (juvenile) in Kyle, SD, who were
                               employed for 12 years and 7 years respectively before either
                               attended detention officer training, and a detention officer at
   Sign restricting firearms   Shiprock, who was hired in 1999 and still has not attended
  into the Yakama cell area.   detention officer training.

                               With few exceptions, there seems to be an overall lack of
                               emphasis on formal certification training of detention
                               officers. We found that many jail administrators place little
                               importance on sending newly hired personnel to training at
                               the IPA. We also found there is hardly any emphasis on
                               refresher training or skills enhancement training for detention
                               officers. The prevailing attitude in most instances is that no
                               additional training is necessary after an officer attends basic
                               detention officer training. One exception to this attitude was
                               found at the Tohono O’odham detention facility where they
                               have a Field Training Officer (FTO) program, along with a
                               FTO manual.

                               Utilization of untrained or poorly trained personnel places
                               inmates and officers at great risk and obviously raises
                               concern about the overall safety and security of many of the
   Yakama jail supervisor      detention facilities. For example, detention personnel at
  carrying firearm into the    Yakama and Pine Ridge allow police officers to enter the jail
         cell area.            cellblocks with their firearms contrary to nationally accepted
                               standards and common sense. Furthermore, we observed the
                               detention supervisor at Yakama carry his firearm into the
                               main cellblock despite posted signs prohibiting them. This
                               practice, which we believe is attributable to lack of training



                                                            - 45 -
                 and lackadaisical attitude, places everyone within the jail at
                 significant risk.

                 We received conflicting information regarding the
                 availability of basic training at the IPA. Several jail
“We’ve never     administrators claimed that they are unable to send new
received any     personnel to the IPA for training because classes are
training on      infrequent and are often full; however, IPA personnel
how to operate   indicated that they routinely have vacancies for these classes
                 and hold regional or local training sessions when asked to
a detention      provide them. According to IPA officials, the IPA attempts
facility.”       to hold three detention program courses per year although
                 only two were held last year due to budgetary constraints.

                 We learned there are two detention programs offered at the
                 IPA - one for officers working in an adult facility and another
                 for officers working in juvenile facilities. We noted that
                 much of the curriculum is the same; however, IPA requires
                 that a detention officer who has completed one course attend
                 the other entire course in order to be certified in that
                 program. This is often seen as an increased burden for
                 officers who work at facilities that provide both adult and
                 juvenile detention services. We also find it wasteful to
                 require a detention officer to attend a second course that
                 repeats most of the information taught in the original course
                 when a shorter, supplemental course that covers the
                 differences between adult and juvenile detention could easily
                 be developed. Another option would be to combine both
                 courses and develop one certification program.

                 We also noticed consistent problems with proper
“Most BIA        documentation and adherence to standards at detention
                 facilities. Some administrators have attributed this to a lack
standards        of training. One District Commander stated, “We’ve never
can’t be met,    received any training on how to operate a detention facility.”
so why even      When asked if their facility followed BIA standards, that
try?”            same individual quipped, “Most BIA standards can’t be met,
                 so why even try?”

                 Our assessment determined that the poor management of
                 many of the Indian Country jails can be directly attributed to
                 the failure of BIA-LES to provide and require that jail
                 administrators receive supervisory and financial management
                 training. Most jail administrators we interviewed had
                 received little or no training beyond basic detention officer
                 training; however, there were some notable exceptions. We



                                              - 46 -
found that the jail administrators at the more proficiently run
facilities, such as Salt River, Gila River, and Tohono
O’odham in Arizona and Ute Mountain in Colorado, had
experience and formal training obtained from working in
other detention programs.

At Salt River, for example we interviewed the jail
administrator who has an extensive detention management
background with numerous professional certifications. The
manager, who is a non-Indian, explained that he viewed his
responsibilities to include training and preparing his Native
American staff to eventually take his place.

NIC holds one or two training conferences per year for
Indian Country jail administrators to attend at no cost other
than transportation and lodging. We found that only 25 jails
were represented at the most recent conference in May 2004.
NIC personnel and attendees indicated that it is usually the
same one third of the Indian Country jail administrator
population that participates in these conferences.

NIC also maintains a comprehensive library of reference and
training material, which includes workbooks for budget
planning, jail staffing analysis, and many other pertinent
issues. NIC has published a bibliography of all library
holdings about or referencing Indian Country jails. We were
surprised to learn that many of the BIA detention specialists
we spoke to did not know about the bibliography and few jail
administrators had taken advantage of this learning
opportunity.

Recommendations
   19. BIA-LES and the IPA should take immediate action
       to identify and train all current detention officers who
       have not received the basic IPA detention officer
       training.

   20. Appropriate measures to track and ensure
       compliance/certification of training by detention
       officers should be developed by DOI-OLES, BIA-
       LES, and tribes.




                             - 47 -
21. DOI-OLES should work with BIA-LES and the IPA
    to develop training standards and modules for BIA
    and tribal detention officers that would, at a
    minimum, eliminate the need for separate adult and
    juvenile detention courses.




                       - 48 -
Chapter 7: Other Issues

                      The placement of juveniles in adult detention facilities is
Juveniles Housed      limited by the Juvenile Justice and Delinquency Prevention
at Adult Facilities   Act of 1974.17 The Act states in part, “…juveniles alleged to
                      be or found to be delinquent…shall not be detained or
                      confined in any institution in which they have contact with
                      adult[s] incarcerated because they have been convicted of a
                      crime or are awaiting trial on criminal charges…”

                      The Act allows for combined adult/juvenile jails if the
                      juvenile and adult inmates cannot see each other and no
                      conversation between them is possible.18 This requirement is
                      commonly referred to as “sight and sound separation.”

                      During our site visits, we were troubled to learn of instances
                      where juveniles were being housed with adults or held in
 “One inmate          adult facilities. This unlawful practice not only creates
 raped another        significant potential liability concerns, it significantly
 inmate in 1997.      increases the likelihood that juveniles will be harmed by
                      others or themselves. No matter what the reason or the
 It was due to        duration of confinement, this practice would make major
 understaffing and    media headlines were it happening elsewhere in America.
 the guard was not
                      A detention officer at one facility stated, “One inmate raped
 certified. The boy   another inmate in 1997. It was due to understaffing and the
 was 13… The boy      guard was not certified. The boy was 13….The boy should
 should not have      not have been there.” The officer added that the 13-year-old
                      victim was being held in the jail for social services because
 been there.”         there was no other place to hold him.19

                      According to officials at the Rosebud adult detention facility,
                      juveniles are routinely held in violation of the sight and
                      sound separation mandate because there is no juvenile
                      facility on the reservation and staffing shortages prohibit
                      detention staff or police from transporting juveniles off the
                      reservation.



                      17
                         The Act exempts juveniles held in secure adult facilities if being tried
                      as an adult.
                      18
                         Modification to the Act, effective December 1996, clarified the sight
                      and sound separation requirement and provided that brief and inadvertent
                      or accidental contact in non-residential areas is not a reportable violation.
                      19
                         BIA records indicate the settlement in the case was for $150,000.


                                                         - 49 -
                             In addition, we were told that while the juveniles are
                             physically separated from the adult population, they are still
                             able to hear and communicate with adults in other parts of
                             the jail. Detention officials attempt to comply with the spirit
                             of the law by holding and feeding the juveniles in their
                             individual cells because they cannot be taken to the central
                             dining area without passing through the adult cellblock.
                             Rosebud personnel also attempt to work with the tribal courts
                             to keep the duration of juvenile stays to a minimum amount
                             of time, usually a few days. We note that the Rosebud Sioux
                             tribe is constructing a new juvenile facility at another
                             location on the reservation under a DOJ grant. The new
                             juvenile facility is expected to open later this year.
 Hallway and bench used to
       hold juveniles.
  Sisseton/Wahpeton, SD      At the Sisseton/Wahpeton detention facility, juveniles are
                             held in a locked hallway between the police department and
                             the jail’s outdoor recreation area. This hallway was not
                             intended to house inmates, has no toilet facilities, and has
                             glass doors that could easily be broken with one of the many
                             chairs in the hallway. Recently a juvenile detainee attempted
                             to escape from this hallway by climbing into the jail attic
                             through an access panel in the ceiling. Detention personnel
 “We’re not supposed         were able to apprehend her before she could manage to
 to hold juveniles…          escape from the jail. As a result, however, juveniles are now
 but sometimes we            shackled to a bench in the hallway to prevent future escapes.
 have to.”                   One officer stated “We’re not supposed to hold juveniles…
                             but sometimes we have to.” Detention personnel indicated
                             that they have no choice but to hold arrested juveniles since
                             there is no juvenile facility on the reservation and they do not
                             have enough personnel to transport juveniles to other
                             locations without advance planning. One officer advised that
                             juveniles are usually only held for a few hours until they can
                             be released to relatives or social services personnel. There
                             are occasions, however, when a juvenile is held overnight
                             because relatives cannot be contacted.

Overcrowding                 Frequently, many of the jails in Indian Country operate at, or
                             over, their intended capacity. Of the facilities visited, 53% of
                             jail personnel remarked they were habitually overcrowded,
                             whereas the others only became overcrowded on holiday
                             weekends or during tribal events. At some of the facilities,
                             overcrowding has become a health and sanitary issue. Many
                             inmates sleep on mats on the floor because the jails hold two
                             or three times their rated capacity on a regular, recurring
                             basis. For example, the Tohono O’odham jail has a rated
                             capacity of 34 but routinely holds more than 110 inmates.
                             Consequently, more than half the inmates at this jail sleep on


                                                          - 50 -
                        mats on the cell floors, increasing the potential for
                        altercations and injuries because inmates cannot move
                        without stepping over and around one another. Only a
                        handful of jails transport inmate to other facilities to alleviate
                        overcrowding. Most simply pack more and more inmates
                        into the cells and hope that the overcrowding does not last
                        too long. Some jail administrators we interviewed discussed
                        the potential benefits of having a regional jail or jails within
                        Indian Country as one option to alleviate overcrowding. For
                        example, we learned that the Ute Mountain detention facility,
                        which often has more beds than inmates, has been accepting
   Overcrowded cells.
  Tohono O’odham, AZ.
                        inmates from the Mescalero Apache Tribe in order to gain
                        the most use of the facility. Additionally, BIA-LES officials
                        indicated that they have been researching the concept of
                        constructing regional detention facilities to house long-term
                        inmates which would have the added benefit of reducing the
                        inmate populations at local jails.

                        During our site visits, we discussed the benefit of building
                        regional jails. We found that there was varying support for
                        the concept; however, the most common impediment to a
                        regional concept noted was the resulting loss of tribal
                        identity. Others expressed no concern for mixing members
                        of different tribes together in a regional facility.
Policies and
Procedures              By their own admission, BIA managers have failed to follow
                        their own guidelines for the detention program. In October
                        1996, BIA published detention facility handbooks, which
                        established policies and procedures for Indian Country jails.
                        The policies and procedures were derived from national
                        corrections industry standards. The handbooks initially
                        established 48 mandatory standards for adult facilities and 47
                        mandatory standards for juvenile facilities. Detention
                        facilities were required to comply with mandatory standards
                        by the end of 1998. The remaining 201 adult standards and
                        219 juvenile standards were designed to be phased-in over an
                        8-year period after publication so that by the end of 2005,
                        detention facilities would be 90 percent compliant with all of
                        the published standards. Alarmingly, we found that none of
                        the jails we visited were compliant with the original
                        mandatory standards, let alone the remaining ones. We also
                        found BIA managers made little effort to adhere to the
                        compliance schedule or ensure that jails even worked toward
                        compliance with the original mandatory standards.

                        BIA’s approach to development and implementation of its



                                                      - 51 -
            detention standards held all BIA-operated and 638-contract
            jails accountable for each of the standards without regard for
            the size and operation of individual facilities. This flawed
            plan required that a jail with ten beds be held to the same
            standards as a jail ten times its size, unnecessarily
            overloading smaller facilities with needless and inappropriate
            requirements in a situation where simple, basic detention
            procedures should be sufficient.

            Under the compliance schedule published in the detention
            handbooks, these jails were held to the same implementation
            timetable regardless of operational considerations, staff size,
            or inmate population. It appears that BIA simply adopted
            American Correctional Association (ACA) jail standards
            without giving any consideration to the variety of detention
            facilities under its jurisdiction.

Liability   BIA’s neglect and mismanagement of the detention program
            increases the liability potential to BIA and to the Department.
            BIA has paid out $855,000 to settle several lawsuits in the
            last 3 years alone and there is another $11 million claim
            pending. We believe that federal, state, or county jails
            operating under the same conditions we discovered at Indian
            Country detention facilities would be inundated with legal
            actions and most would likely have been shut down by court
            order long ago.

            We also found that detention officers at the majority of the
            jails we visited are dispensing prescription medications to
            inmates with little, if any, training, inadequate safeguards,
            and no formal process to ensure legal and medical
            requirements are met.

            BIA is sitting on a liability time bomb and must act to diffuse
            it now so that modest funds available can be used for their
            intended purpose, instead of potentially being consumed by
            legal fees, fines, and judgments.

            Recommendations
               22. DOI-OLES should conduct routine scheduled and
                   unscheduled inspections to determine compliance
                   with the juvenile sight and sound restriction wherever
                   adult and juvenile offenders are co-located.




                                         - 52 -
23. DOI-OLES should assist BIA-LES with the
    development and implementation of appropriate
    standards for Indian Country detention facilities.
    Consideration for size, capacity, and type of facility
    should be taken into account. Standards should, at a
    minimum, identify core health and safety
    requirements that would be applicable to all jails
    regardless of size and capacity.

24. DOI-OLES and BIA-LES should consult with the
    tribes and continue to explore using regional
    detention facilities to accommodate longer-term
    inmates and to reduce overcrowding at smaller
    facilities.




                         - 53 -
Chapter 8: Positive Findings in the Detention Program

                  As a result of our Interim report, the Secretary immediately
                  charged a senior Department official with overseeing BIA
                  actions to remedy the conditions at Indian Country jails. The
                  Secretary also promptly requested assistance from the DOJ,
                  Bureau of Prisons (BOP), which resulted in a senior-level
                  detention professional being detailed to the Department to
                  assist BIA-LES senior management with the identification
                  and implementation of actions to correct the deficiencies we
                  discovered during our assessment.

                  BIA-LES senior officials readily acknowledged the
                  deplorable conditions at the detention facilities and expressed
                  grave concern over our findings. They have already made
                  management and staffing changes at various levels of the
                  detention program.

                  In early September 2004, BIA-LES conducted a strategic
                  planning conference to deal with the significant deficiencies
                  noted in our April 2004 Interim report. BIA-LES
                  subsequently published the Indian Country Detention
                  Strategic Planning Summary, which contained a task
                  management plan when, if implemented as designed, may
                  address some of the safety, security, and health-related
                  concerns we observed during our site visits.

                  BIA-LES has assigned a number of its own personnel to
                  accomplish these tasks and has either requested outside
                  resources to assist them in addressing these issues or has
                  developed a plan to obtain outside assistance from
                  professional corrections organizations, such as the Bureau of
                  Prisons, American Correctional Association, American Jail
                  Association (AJA), and Nation Institute of Corrections. In
                  addition, BIA-LES is in the process of developing plans to
                  ensure that health, safety and maintenance issues are
                  promptly communicated and addressed by OFMC as well as
                  an inspection process to confirm that these issues are being
                  dealt with promptly.

                  In response to our concerns about overall non-compliance
                  with standards that were voiced in our Interim Report, BIA-
                  LES began to review its current standards as they applied to



                                              - 54 -
each type of facility. BIA-LES reported that they are
working with ACA and AJA to develop new standards that
will apply to detention facilities based upon their size, staff,
and inmate population and which will be implemented
through a gradual compliance schedule.

It should also be noted that during our assessment we did
discover some instances in which detention personnel were
being proactive and had implemented procedures with a goal
of managing jails more effectively and where positive results
have truly been achieved.

As previously noted, the Tohono O’odham detention facility
has established a Field Training Officer program to ensure
that new detention officers are mentored and veteran
detention officers are provided with refresher and skills
enhancement training.

The Gila River juvenile detention facility has established a
program in which juveniles receive counseling and education
as they progress through a program of self-improvement.
Additionally, inmates are held accountable for their behavior
with established consequences for vandalism and for upkeep
of uniforms, furniture, and other equipment issued to them.

The White Buffalo Home juvenile detention facility obtained
a grant to establish a home detention program to reduce the
detainee population while encouraging rehabilitation of first-
time offenders. The program has been so successful that they
hope to extend the program by obtaining another grant.

We also found that the detention facility at the Nisqually
reservation in Washington was constructed as a minimum
security jail utilizing modular buildings, resulting in
significant cost savings over traditional construction
methods.

We were also surprised to discover that all of the positive
innovations noted above occurred at detention facilities
operated by the tribes under the 638-contract programs. We
found that the Tohono O’odham and White Buffalo facilities
share many of the maintenance problems and staff shortages
found at other jails, yet they still managed to make program
improvements and achieve meaningful results.

Another positive effort was noted in Arizona where detention



                              - 55 -
personnel from the Hualapai Indian Nation, San Carlos
Apache Tribe, Gila River Indian Community, Salt River
Pima-Maricopa Indian Community, and the Tohono
O’Odham Nation created the Arizona Tribal Justice and
Rehabilitation Coalition (ATJRC). ATJRC was formed to
benefit member tribes through cooperative initiatives
involving resource development, education, and coordination
of detention and related services. Presently, 12 of the 22
Arizona tribes are members of ATJRC.20 The coalition holds
regular meetings where detention issues are discussed and
members share experiences and best practices.

Recommendation
     25. BIA-LES should facilitate regular regional meetings
         for all BIA and tribal detention administrators to
         encourage collaborative efforts and discussions on
         detention best practices.




20
  Only two of the four BIA-operated jails in Arizona are members of this
organization.


                                - 56 -
Conclusion

             BIA has failed their responsibility for providing safe and
             secure detention facilities. The detention program has
             essentially been ignored by BIA-LES managers and allowed
             to languish while attention and funds have been focused on
             other more traditional law enforcement operations.

             At the beginning of this assessment, BIA indicated that the
             majority of their problems could be attributed to a lack of
             funding. While we believe that more funding is needed, we
             also believe that BIA is not effectively utilizing the funds it is
             being given now. BIA must get its fiscal house in order
             through establishment of sound budget and accounting
             practices as well as oversight processes before any additional
             funds are sought or given.

             We firmly believe that BIA must overcome the self-imposed
             paralysis that results from the often-used excuse that BIA
             simply needs more money. Much can be accomplished when
             managers and staff apply a sensible attitude to overcome
             challenges. Oversight has minimal costs and, if practiced,
             would correct many of the deficiencies that were found.
             Simply put, a little attention goes a long way.

             The responsibility for the conditions and failings we have
             found at Indian Country detention facilities cannot be
             attributed to any particular individual or administration.
             Some of these problems are decades old. Thus, the solutions
             will not be easy to achieve and may take considerable time,
             effort and funding. However, nothing less than Herculean
             effort to turn these conditions around would be morally
             acceptable.




                                           - 57 -
                                                                           Appendix 1

                  REPORT RECOMMENDATIONS


                              Recommendations
No.                                                                             Page

 1.   For the purpose of providing the prominence and advocacy vital to          12
      ensuring that the focus on improving Indian Country jails does not
      diminish, the Deputy Assistant Secretary for Law Enforcement
      should become actively engaged in coordinating the oversight and
      management of the BIA-LES detention program.

 2.   The Department should create a senior-level (GS-14/15) full-time           12
      equivalent (FTE) position for a detention professional in DOI-
      OLES to help provide increased coordination and advocacy for the
      Indian Country detention program.

 3.   DOI-OLES should conduct compliance inspections at BIA and 638-             12
      contract detention facilities on a scheduled and unscheduled basis.
      For the immediate future, it is recommended that the Department
      OLES and not BIA-LES be responsible for the compliance
      oversight of the detention program.

 4.   BIA-LES should establish a senior-level (GS-15) detention program          12
      director with proper detention management credentials to manage
      the BIA and 638- contract detention facilities. This position should
      report directly to the BIA-LES director, coordinate actions with
      DOI-OLES, and be the BIA-LES liaison with OFMC for detention-
      related repairs. BIA should provide the appointee with adequate
      new staff to fulfill these responsibilities. At a minimum, the Central
      Detention office should be staffed with a Director, Deputy Director,
      secretary, and three management analysts. The six regions should
      be staffed with two detention specialists per region.

 5.   DOI-OLES should ensure that BIA-LES establishes and                        24
      implements clear reporting protocols for serious incidents occurring
      at all BIA and 638-contract detention facilities. At a minimum, all
      officer safety issues, inmate deaths, attempted suicides, assaults, and
      escapes should be reported promptly through an established chain
      of command ending with the Director of BIA with copies to the
      DOI-OLES.
                              Recommendations
No.                                                                           Page

 6.   BIA and 638-contract detention administrators should ensure that         24
      any escape is immediately reported to surrounding local, tribal and
      state law enforcement authorities.


 7.   BIA-LES criminal investigators should immediately respond and            24
      conduct a preliminary inquiry to determine if a full investigation is
      warranted on any reported serious incident. Their findings, in
      every case, should then be reported to the Director of BIA-LES with
      a copy to the DOI-OLES. All death cases at BIA or 638-contract
      detention facilities, not investigated by the FBI, should be
      investigated by a BIA-LES criminal investigator.

 8.   BIA and tribes should explore alternatives to detention for              25
      intoxicated inmates. When it is necessary to incarcerate intoxicated
      inmates, additional detention officers should be on-duty to assist
      with the additional monitoring required.

 9.   DOI-OLES should work with the tribes and BIA to establish a              25
      Memorandum of Understanding (MOU) with the Indian Health
      Service to provide on-site medical assistance at all detention
      facilities with more than 20 inmates incarcerated. Detention staffs
      should be adequately staffed and scheduled to accommodate for
      medical transport to hospitals when necessary.

10.   Staffing shortages at BIA and 638-contract detention facilities that     29
      are related to officer safety should be identified by the BIA-LES
      and corrected immediately. DOI-OLES should oversee this effort.

11.   BIA-LES in collaboration with 638-contract programs should               29
      develop staffing models and methodologies for BIA and 638-
      contract detention facilities. DOI-OLES should oversee this
      developmental effort.


12.   The DOI Law Enforcement and Security Board of Advisors should            30
      develop recruiting standards and guidelines for BIA detention
      officers. BIA-LES should then assist tribal detention programs in
      developing standards and guidelines for tribal detention officers.
                              Recommendations
No.                                                                          Page

13.   BIA OFMC and BIA-LES should immediately establish an effective          36
      system for prioritizing repairs that have any impact on inmate or
      detention officer safety. They should also review FMIS to identify
      and remedy inaccurate and redundant entries and implement
      quality control measures to reduce the risk and occurrence of
      improper entries.

14.   BIA should establish and implement a single line item budget for all    44
      BIA-LES detention facilities and expenses. BIA-LES should
      require 638-contract detention facilities to implement similar cost
      tracking practices.

15.   BIA should utilize accurate budget projections that incorporate         44
      future funding requirements when preparing funding requests
      rather than just using historical data. As part of future funding
      requirements, BIA-LES senior officials and local detention
      administrators should identify any existing needs and/or
      deficiencies so that these issues can be properly addressed.

16.   DOI-OLES should work with BIA, tribes and DOJ to develop                44
      strategic plans for jail replacement and renovation. DOI-OLES
      should assist BIA-LES with developing a comprehensive needs
      assessment to ensure that jails are built and sized appropriately.

17.   BIA should implement internal control procedures and proper             44
      management oversight to ensure that BIA funding and expenditures
      are accurately tracked and reported on a regular basis.

18.   A standard law enforcement and detention service clause should be       44
      developed and used in each and every Public Law 93-638 contract
      for BIA law enforcement and detention services. The clause should
      require at a minimum that: (1) law enforcement and detention
      funding be accounted for and used for its intended purpose and (2)
      serious incidents be promptly reported to BIA-LES as a condition
      of the contract.

19.   BIA-LES and the IPA should take immediate action to identify and        47
      train all current detention officers who have not received the basic
      IPA detention officer training.
                             Recommendations
No.                                                                         Page

20.   Appropriate measures to track and ensure compliance/certification      47
      of training by detention officers should be developed by DOI-OLES,
      BIA-LES and tribes.

21.   DOI-OLES should work with BIA-LES and the IPA to develop               48
      training standards and modules for BIA and tribal detention
      officers that would, at a minimum, eliminate the need for separate
      adult and juvenile detention courses.

22.   DOI-OLES should conduct routine scheduled and unscheduled              52
      inspections to determine compliance with the juvenile sight and
      sound restriction wherever adult and juvenile offenders are co-
      located.

23.   DOI-OLES should assist BIA-LES with the development and                53
      implementation of appropriate standards for Indian Country
      detention facilities. Consideration for size, capacity, and type of
      facility should be taken into account. Standards should, at a
      minimum, identify core health and safety requirements that would
      be applicable to all jails regardless of size and capacity.

24.   DOI-OLES and BIA-LES should consult with the tribes and                53
      continue to explore using regional detention facilities to
      accommodate longer-term inmates and to reduce overcrowding at
      smaller facilities.

25.   BIA-LES should facilitate regular regional meetings for all BIA and    56
      tribal detention administrators to encourage collaborative efforts
      and discussions on detention best practices.
